<html>
<title> - EMERGENCY PREPAREDNESS FOR THE ELDERLY AND DISABLED</title>
<body><pre>[Senate Hearing 107-292]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-292
 
                         EMERGENCY PREPAREDNESS
                      FOR THE ELDERLY AND DISABLED
=======================================================================



                             FIELD HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                              NEW YORK, NY
                               __________

                           FEBRUARY 11, 2002
                               __________

                           Serial No. 107-18

         Printed for the use of the Special Committee on Aging









                    U.S. GOVERNMENT PRINTING OFFICE
77-851                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           PETER G. FITZGERALD, Illinois
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              CHUCK HAGEL, Nebraska
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)

  







                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1

                                Panel I

Hon. Benjamin A. Gilman, A Representative in Congress from the 
  State of New York..............................................     3
Josefina G. Carbonell, Assistant Secretary for Aging, U.S. 
  Department of Health and Human Services........................     6
R. David Paulison, U.S. Fire Administrator, Federal Emergency 
  Management Agency..............................................    20
Stephen Ostroff, M.D., Associate Director for Epidemiologic 
  Science, National Center for Infectious Diseases, Centers for 
  Disease Control and Prevention, Department of Health and Human 
  Services.......................................................    22
Alexander Parzych, Assistant Chief of Fire Prevention............    35
Richard Sheirer, Director New York City Office of Emergency 
  Management.....................................................    36
Wayne Osten, Director, Office of Health Systems Management.......    38
Igal Jellinek, Executive Director, Council on Senior Centers and 
  Services of New York...........................................    41
Michael Benfante, Employee of Network Plus.......................    44
Andrea Dale, Visiting Nurse Service of New York..................    49

                                APPENDIX

Information on Emergency Evacuation Devices......................    83

                                 (iii)

  








          EMERGENCY PREPAREDNESS FOR THE ELDERLY AND DISABLED

                              ----------                              


                       MONDAY, FEBRUARY 11, 2002

                                       U.S. Senate,
                                Special Committee on Aging,
                                                      New York, NY.
    The committee met, pursuant to notice, at 2 p.m., at 5 Penn 
Plaza, Room 302, New York, NY, Senator Larry Craig, presiding.

          OPENING STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Ladies and gentlemen, if I could have your 
attention. We will start this hearing on the Special Committee 
on Aging of the U.S. Senate. First and foremost, let me thank 
all of you so very much for being with us today. We view this 
as a very special hearing to hear from New York City, and to 
have you share with us some of the things that you have learned 
in the last several months.
    Five months ago today attacks on America began right here 
in this city: First at the World Trade Center as, of course, 
you all know. Many of you who are New Yorkers may well have 
experienced it visually and in reality firsthand. Then, of 
course, down in a city where I spend a fair amount of my time, 
Washington DC., and the Pentagon. These attacks on America I 
think changed all of our lives in some way and many lives and 
many institutions in major ways. I suspect none of us will ever 
forget that tragic day.
    I came here shortly after the attacks with my friends and 
colleagues from the U.S. Senate. We stood in shock and in awe 
at Ground Zero and what we saw with the devastation that was 
clearly evident there. I chose to come back here today so that 
we could look at some of the expertise and some of the finest 
emergency response that clearly went on during that time that 
the world is now well aware of. I think New Yorkers learned 
much about the tragedy of September 11, and I want to hear what 
you have learned as it relates to the seniors, the elderly, and 
the some of the infirm of America and what we might learn 
better so that the Special Committee on Aging can turn to 
people like Governor Ridge, who is now heading up homeland 
security, and we might offer suggestions and even propose 
regulation changes or law changes to some of our agencies as it 
relates to all of that.
    Well, there are all heroes, but there are some heroes here 
today, Michael Benfante--there are many more just like him, 
people who help strangers in a time of need, and I could go on 
and on as it relates to some of the wonderful things that 
occurred in this city.
    Abe Zelmanowitz, we want to recognize him, the work he did 
on behalf of a friend, a paraplegic in a wheelchair, and all 
that is now part of the history of September 11. These were 
heroes: The firemen who arrived at the scene, many who gave 
their lives; we all know about that now, and we will never 
forget it, and we will continue to honor it. They were and are 
brave men and women who responded in the line of duty.
    According to a poll commissioned by the National 
Organization On Disability last November, 58 percent of people 
with disabilities say they do not know who to contact about 
emergency plans for a community in event of a terrorist attack 
or other crises. In other words, we are just beginning to learn 
that there is a whole community of people out there who find 
themselves or feel increasingly vulnerable as a result of 
September 11. Sixty-one percent say that they have not made 
plans to safely or quickly evacuate their own homes, and it 
goes on and on. Well, those are some of the issues that we will 
talk about today with the panels that we have assembled, and I 
want to thank you all so very, very much for coming.
    The first person who is with us today, I am very proud that 
he had the time to join us because he is a gentleman I got to 
know a long while ago. I served in the House for 10 years, and 
during that period of time I got to know and appreciate 
Congressman Ben Gilman from here in your area.
    Ben has been one of those great public servants who 
constantly gives of his time and his talent to all of his great 
State and now to the Nation, and I was extremely pleased that 
Ben would join us today and to become a part of a panel not 
only to give testimony, but to sit here at the dais with me 
and, Ben, I will tell you that you can question and participate 
just like this was a joint House and Senate hearing because 
that is what we are going to make it with Ben's presence here.
    Let me also thank my chairman, John Breaux of Louisiana, 
for allowing me to bring the committee up here today for what I 
think is an extremely valuable hearing. Then what we are going 
to do because of the character of the way we set this room up 
so that you are all a part of it in a somewhat roundtable 
discussion, I am going to work my way around the room and 
introduce you and receive your testimony and then, as I ask 
questions this afternoon, while some of them might be specific 
to you as an individual in your expertise, please feel free to 
add to or join in as questions are asked and you feel you have 
additional information to offer.
    I would also tell you that all of your written testimony is 
a part of the record and will be reviewed by the committee and 
can be reviewed by all Senators because it is a part of our 
committee record. So, we again thank you all so very much for 
being with us this afternoon. We will keep our hearings on 
schedule and on time; we will make every effort to do that.
    Now let me turn to a good friend over the years and I know 
one of your very best in Washington and here in New York, 
Congressman Ben Gilman. Ben, thanks so much for being with us.
    [The prepared statement of Senator Larry Craig follows:]

               Prepared Statement of Senator Larry Craig

    Good afternoon. Thank you for attending today's hearing of 
the Senate Special Committee on Aging. I would like to thank 
the witnesses for agreeing to testify on the critical issue of 
emergency preparedness for the elderly and disabled. I know 
that some of you have stories of personal experiences that may 
be difficult to tell, and I especially thank you for being 
here.
    Five months ago today attacks on America began right here 
in New York City--first at the World Trade Center and then at 
the Pentagon. These attacks on America changed our lives 
forever. No one will ever forget that terrible day.
    I came here shortly after the attacks with my friends and 
colleagues from the U.S. Senate. We stood in shocked awe at the 
scope of the devastation at the site of the World Trade Center.
    I chose to come back here today so that we can call upon 
the expertise of the finest emergency responders in the nation. 
New Yorkers learned much from the tragedy of September 11 and I 
look forward to hearing your testimony, ideas and suggestions 
about how we can address the needs of seniors and disabled 
people in future times of crisis.
    We will also hear from at least one hero today, Michael 
Benfante--and there are many more just like him--people who 
helped strangers in a time of need. There are other heroes we 
will never hear from--people who laid down their lives for 
others.
    One of those heroes we will not hear from--but one we 
should recognize--is Abe Zelmanowitz. He stayed by the side of 
his friend, Ed Beyea, a quadriplegic who used a wheelchair. 
When it came time to evacuate the World Trade Center, Abe 
stayed with Ed and waited with him to be rescued. Abe lost his 
life waiting with his friend Ed--Abe Zelmanowitz was a hero.
    There were other heroes too--the firemen who arrived on the 
scene, many of whom also gave their lives for others. These 
brave men and women have always put their lives on the line. It 
is critical to their safety, as well as for the safety of the 
rest of us, that our nation's firefighters have access to the 
equipment, training, and personnel they need--and I am working 
hard in Washington, DC, to make that happen.
    According to a poll commissioned by the National 
Organization on Disability last November, 58 percent of people 
with disabilities say they do not know who to contact about 
emergency plans for their community in the event of a terrorist 
attack or other crisis. Sixty-one percent say that they have 
not made plans to quickly and safely evacuate their home.
    Clearly we must highlight the need for greater preparation 
in meeting these needs.
    I'd like to thank each of the witnesses for being here 
today and for sharing their insights into his complex problem. 
I look forward to hearing your testimony.

   STATEMENT OF HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Rep. Gilman. Thank you, Senator Craig, for your kind 
invitation to join the Senate Special Committee on Aging. It 
has done so much good for so many of us and keeps us all 
apprised of the needs of our aging in both the Senate and the 
House. I want to thank our participating panelists who are here 
from the Federal Government, and the State Government and the 
City Government, as well as visiting nurses and some of the 
other important dignitaries who we look forward to hearing from 
today.
    I represent a little, small part of New York State a little 
bit north of New York City in Westchester, Rockland, Orange, 
and Sullivan Counties. Regrettably we had over 90 families that 
lost their next of kin in the World Trade Center tragedy. And 
that is why this hearing is so important as we try to learn 
from the lessons of what occurred at that time. As New York 
continues to recover from the tragic events of 9/11, our Nation 
continues to go through the process of discerning what best we 
can learn from all of that experience. It is important we 
discuss the issue of emergency responses for our elderly and 
our disabled. I commend this Special Committee on Aging, for 
moving forward so that we can put together some better thoughts 
for the future. Hopefully we won't have to need those 
preparations, but better to be prepared than not prepared.
    Mr. Chairman, obviously emergency evacuation procedures 
need to be reconsidered. While no one before September 11 could 
have envisioned the massive brutal destruction or the speed in 
which it occurred, we have to recognize the special and unique 
challenges which exist for our elderly and our disabled. The 
World Trade Center Tower Number One and Number Two burned for 
102 minutes and 56 minutes, respectively, before the top floors 
of each tower collapsed onto the lower floors. Even more 
incredible is the fact that 8 seconds later, the entire second 
tower collapsed, and in 10 seconds Tower One followed suit. 
That means that more than 50,000 individuals employed or 
visiting the towers had about an hour to walk down 104 smoke 
and debris-filled floors and hallways--no small task for any 
young person, relatively healthy individual, let alone someone 
either elderly or disabled.
    All of us from the New York metropolitan area and across 
the nation are grateful for the heroism displayed by our 
firefighters, our police, our rescue people and emergency 
personnel. Those services were taxed to the maximum, the 
maximum extent possible, more than anyone could have ever 
imagined prior to 9/11. And while we need to proceed forward 
and determine our best to reconfigure current emergency 
preparedness plans, we should make certain that we pay careful 
attention to addressing this specific and different needs which 
exist for the elderly and disabled, and that is why I am so 
pleased to join Senator Craig today as we address this problem.
    However, it is also important that we realize that 9/11, 
while unique in its once unthinkable occurrence, may not be the 
last of such events as our nation engages in our war on 
terrorism; and, as the President reminds us, this may not be 
the last event. Accordingly, at today's hearing we need to hear 
from the top City, State, and Federal officials on what we have 
learned from September 11 and what is being done to correct any 
lapses or inconsistencies which it may be found to exist with 
regard to emergency preparedness and evacuation.
    In an emergency situation advanced planning, of course, is 
the key to safety and to piece of mind. This also rings true 
for those elderly and our disabled. Without the assistance of 
coworkers those individuals most often could be left behind. 
Decisions and now what must be done during such an event must 
be thoroughly reviewed to determine how best to meet those kind 
of emergencies prior to any event happening. This includes the 
obvious concerns that have come about in my own region 
recently, when it comes to nearby nuclear power plants. I am 
specifically referring to Indian Point, which is just up the 
river within a 30-mile range from here, Senator Craig.
    Let me read you two brief quotes with regard to that 
problem. State and local governments are the first line of 
defense in the event of a serious nuclear power plant accident, 
and their ability to respond depends to some extent on the 
adequacy of guidance and training provided by FEMA--and I am 
pleased FEMA is here today--and other Federal agencies. 
Further, more can be done to help state and local governments 
to respond effectively to a radiological emergency.
    Now, those quotes were taken from a 1984 U.S. Controller 
General GAO report entitled Further Actions Needed to Improve 
Emergency Preparedness Around Nuclear Power Plants. Proper 
improvements to the emergency preparedness plan for any event 
can be made when those responsible for public safety at all 
levels of government effectively communicate with each other. 
And that is why it is so good, Senator Craig, to have all of 
these agencies represented here today. Hopefully this process 
will enhance our preparedness to these kind of emergencies.
    So, in closing, permit me to again stress my sincere 
appreciation for all of the incredible heroism, the dedication 
displayed by all of those that were involved in this tragic 
event: Our firefighters, our police, our agency personnel, 
emergency personnel, rescue personnel, and our good Samaritans. 
And many of these true national heroes reside in my 
congressional district. I have a number of our police and 
firemen residing in my area, and many lost their lives 
regrettably on that faithful day. So I look forward along with 
Senator Craig to hear your testimony today and your good 
thoughts of what we can do to prepare for any future event. God 
willing, we will not have any such occurrence again. Thank you, 
Senator Craig.
    [The prepared statement of Rep. Gilman follows:]

             Prepared Statement of Rep. Benjamin A. Gilman

    I want to thank Senator Craig for the invitation to 
participate at today's hearing. As New York continues to 
recover from the tragic events of September 11, and our Nation 
continues to go through the process of discerning what can be 
learned from the experience, it is important that we discuss 
the issue of emergency responses for the elderly and disabled. 
I commend the Special Committee on Aging for proceeding forward 
today.
    Mr. Chairman and Ranking Member, clearly emergency 
evacuation procedures need to be reconsidered. While, no one 
before September 11, could have envisioned such destruction or 
the speed in which it occurred; we must recognize the special 
and unique challenges which exist for those elderly and/or 
disabled.
    World Trade Center tower number one and two burned for 102 
minutes and 56 minutes respectively, before the top floors of 
each tower collapsed onto lower floors. Even more incredible, 
is the fact that eight seconds later the entire second tower 
collapsed and in ten seconds tower one followed suit. This 
means that more than 50,000 individuals employed or visiting 
the towers had approximately an hour to walk down 104 smoke and 
debris filled floors and hallways. No small task for a young, 
relatively healthy individual, let alone someone either elderly 
or disabled.
    All of us from New York and across the Nation are grateful 
for the heroism displayed by our firefighters, police, rescue 
and emergency personnel. These services were taxed to the 
maximum extent possible--more than anyone could have ever 
imagined prior to September 11.
    While we need to proceed forward and determine how best to 
reconfigure current emergency preparedness plans, we must be 
sure to pay careful attention to addressing the specific and 
differing needs which exist for the elderly and disabled.
    However, it is also important that we realize that 
September 11, while unique in its once unthinkable occurrence, 
may not be the last such event, as our Nation engages in the 
war on terror.
    Accordingly, at today's hearing we need to hear from top 
City and State officials on what has been learned since 
September 11 and what is being done to correct any lapses or 
inconsistencies, which may be found to exist with regard to 
emergency preparedness and evacuation.
    In an emergency situation, advance planning is the key to 
safety and peace of mind. This statement also rings true for 
those elderly and/or disabled. Without the assistance of co-
workers these individuals most often would be left behind. 
Decisions on how and what must be done during such an event 
must be planned and determine now prior to its happening.
    In closing, I want to again stress my sincere appreciation 
for all of the incredible heroism displayed by our 
firefighters, police, emergency and rescue personnel. Many of 
these true national heroes reside in my congressional district 
and many lost there lives on that fateful day.
    Thank you.
    Senator Craig. Ben, thank you very much. Ms. Gilman, thank 
you for joining us today.
    As far away as Idaho is, you would think that we were 
relatively untouched by it. It is simply not the case. 
Certainly we were touched emotionally, and Idahoans have 
responded in a variety of ways. But uniquely enough, we have a 
company that is homed in Idaho that was started in Idaho a long 
while ago who had a division that was housed in the World Trade 
Center and lost 13 employees, four of them native Idahoans. 
That is something that oftentimes we don't realize, but I think 
when we examine the magnitude of the loss of the Trade Center 
that occurred here, that it truly was a national situation, an 
incident, and I think the Congressman, as you know, and 
certainly with your efforts has tried to respond in that 
context.
    Now, let us move around the table and hear from all of you. 
As you know, the Special Committee On Aging in the Senate is 
not an authorizing committee. In other words, we don't write 
legislation. We hold hearings and oversight on those issues 
that are of concern to the seniors and the elderly of our 
country, and then we make recommendations to other committees. 
Oftentimes Chairman Breaux or myself or members of our 
committee will actually testify before other committees about 
our findings. There are several committees in the Senate and 
the House that are unique in this way. We are largely an 
investigative oversight body. That is an uniqueness of the 
Special Committee.
    So, with that, let me introduce our first person to testify 
with us today, Josefina Carbonell, the Assistant Secretary of 
Aging at HHS. Again, thank you so very much for being with us. 
We would like to ask all of you to stay within the 5 minute 
rule if you could, please.

  STATEMENT OF JOSEFINA G. CARBONELL, ASSISTANT SECRETARY FOR 
      AGING, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Carbonell. Thank you, Mr. Chairman, and members of the 
committee. It is indeed a pleasure and an honor to discuss the 
Administration on Aging's perspective on emergency preparedness 
for the elderly and those within disabilities. We appreciate 
your leadership in convening this very important hearing.
    Working in partnership with our national aging network, all 
the service providers that form part of this aging network, AOA 
is charged with providing essential home community-based care 
services to those elderly in most need, some of whom are frail 
and disabled. The Administration on Aging was at the forefront 
to serve this population on September 11 in New York City. We 
were joined by the Centers for Medicare and Medicaid Services 
and the New York Aging provider network to deliver critical 
services during this crisis. The emergency help line put into 
place by CMS and the Administration on Aging received thousands 
of calls from all over the country, many of which were from 
older persons and their caregivers. I have submitted written 
testimony for the record, but I will confine my oral 
presentation again to the lessons we learned from September 11.
    Mr. Chairman, I am committed to ensuring that the aging 
network and all of our providers through state, units on aging 
and the local area agencies on aging and aging providers are 
ready and better prepared for any future disaster. There are 
five needs to be addressed that I would like to address in this 
brief presentation. First, one of my priorities is to ensure 
that our states, our area agencies and tribal organizations 
have emergency and backup plans in place for natural or manmade 
disasters; that they have timetables for updating and revising 
these plans and that there also would be ongoing training 
programs to ensure the timeliness of the training and the 
implementation stages. The administration is currently updating 
our disaster assistance materials and plans to conduct training 
for all levels of the network at the state and local levels.
    Second, there is the need for alternative and backup 
communications systems and that is paramount at all levels of 
government. Battery powered radios and other such devices need 
to be made available in the even of land line and cell phone 
failure, which was the case right here in New York. Third, up-
to-date emergency contact information needs to be available on 
key aging officials with emergency protocols to follow.
    Fourth, we must collect and maintain a special needs 
roster. This information should be shared with all partners in 
the different locations across the country and with our local 
emergency preparedness network.
    Fifth, the aging network resources need to be coordinated 
and integrated with larger Federal, state, and local emergency 
management operations not only to avoid duplication, but most 
importantly, to ensure that the special needs of elders are 
incorporated into the overall community preparedness response 
action plans.
    Every one who is involved in an emergency has to be 
sensitive to the fact that some older persons, especially those 
with disabilities, may become disoriented, may take longer to 
evacuate, may need special equipment or may depend on others to 
help them.
    I want to also call to your attention the need for mental 
health counseling. These services provide individuals impacted 
by disasters with an opportunity to react to and talk about 
what they have experienced. For older persons their day-to-day 
existence is often fragile, meaning that even the most modest 
changes may trigger a series of events that threaten or even 
destroy their ability to continue independently. For example, 
this happened right here in Chinatown at the City Hall Senior 
Center.
    We have learned much from the September 11 event, 
especially that we cannot predict the future. We can, however, 
be better prepared. The commitment of Secretary Thompson to 
help our seniors and their families was put to the test of 
September 11. HHS is one department that exemplifies the 
capacity of all agencies to provide critical assistance during 
crisis. I applaud the dedication of so many of our Federal 
partners, such as the CDC, FEMA, CMS and others who have 
answered the call that day and in the weeks and months that 
followed. We are particularly humbled by the heroic work of the 
New York Aging Service Provider Network including Igal 
Jellinek, who you will hear from later. I want to thank you for 
calling today's hearing. As responsible public officials we 
must do everything in our power to help our communities be 
better prepared.
    Most areas around the country have emergency plans in 
place, and it is critical that these plans cover the needs of 
the elderly. Mr. Chairman, I salute your commitment to our 
nation's older Americans and their characters and I would be 
happy to respond to any questions.
    [The prepared statement of Ms. Carbonell follows:]
    [GRAPHIC] [TIFF OMITTED] T7851.001
    
    [GRAPHIC] [TIFF OMITTED] T7851.002
    
    [GRAPHIC] [TIFF OMITTED] T7851.003
    
    [GRAPHIC] [TIFF OMITTED] T7851.004
    
    [GRAPHIC] [TIFF OMITTED] T7851.005
    
    [GRAPHIC] [TIFF OMITTED] T7851.006
    
    [GRAPHIC] [TIFF OMITTED] T7851.007
    
    [GRAPHIC] [TIFF OMITTED] T7851.008
    
    [GRAPHIC] [TIFF OMITTED] T7851.009
    
    [GRAPHIC] [TIFF OMITTED] T7851.010
    
    [GRAPHIC] [TIFF OMITTED] T7851.011
    
    Senator Craig. Thank you very much, Josefina. In a little 
while you are going to be hearing from Marion Anello.
    Ms. Carbonell. Yes.
    Senator Craig. Marion is one of those seniors who found 
herself evacuated into an area that was somewhat ill prepared 
to respond to her needs. So, following her testimony I want to 
come back to you and get not only your reaction, but some of 
the thoughts that you may have about those kinds of 
circumstances.
    Now let me turn to David Paulison, U.S. Fire Administrator 
FEMA--that's the Federal Emergency Management Agency. FEMA is 
well-known around the country and has developed really a first 
class reputation in the last good number of years for its 
ability to respond quickly and with a level of preparedness 
that is a product of many years of refinement. I am not going 
to suggest you do it perfectly yet, David. It means that you 
are supposed to, though. With that, let us turn to your 
testimony and thanks for being here.

   STATEMENT OF R. DAVID PAULISON, U.S. FIRE ADMINISTRATOR, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Paulison. Thank you, Senator Craig, and I appreciate 
the fact you recognize that we are still working on making it 
better. Also, Representative Gilman, I appreciate having both 
sides of the Congress here.
    I am also pleased to be here representing Joe Allbaugh, the 
FEMA Director. He had previous commitments and could not be 
here, but he reminds us on a regular basis that FEMA should be 
about people helping people, and as a U.S. Fire Administrator, 
I share the Director's commitment to the well-being of disabled 
and our senior citizens.
    Just a little background, I had 30 years of fire service 
experience. I was also in my early years as a firefighter and a 
paramedic.
    Senator Craig. We need to have you pull it a little closer 
and speak into it so our court reporter can hear you.
    Mr. Paulison. As a young firefighter and paramedic, I 
worked mainly in an area with many elderly. I learned some of 
the needs that are there and to love the people that I worked 
with during that time. I have also handled several major 
incidents, particularly Hurricane Andrew, the Valujet crash 
several large evacuations of elderly people during hurricanes, 
and I will talk about those a little bit later.
    The United States Fire Administration worked closely with 
other branches of FEMA to understand, prepare for, respond to 
and recover from all hazards with an eye toward loss of 
property and loss of life. We lose 4,000 people a year to fire 
in this country and 1,200 of those people are over 65, so the 
United States Fire Administration has set a goal to reduce that 
by 25 percent over the next few years. Just as a side note, we 
also lose one firefighter every third day in this country, 
which is totally unacceptable.
    My testimony will focus mainly on what FEMA has achieved, 
what actions we are currently undertaking, and what FEMA 
intends to do in the future. The efforts by FEMA in this area 
was originally spearheaded by FEMA's national community 
relations cadres. The cadres were assigned the responsibility 
to locate and assist special needs population in disaster 
areas. Over the years, FEMA has taken a number of steps in this 
area, and let me briefly cover a couple of those.
    Since 1997 the disaster, field offices have included a 
special needs section to provide further aid. FEMA's national 
community relations operation in the New York disaster area 
made an intense effort to locate and assist special need 
populations. It is essential to provide this function. The 
agency hired a local person knowledgeable not only about 
emergency management and the disabled community. FEMA, in 
concert with New York City, ensured that the Disaster 
Assistance Service Center would be accessible to seniors and 
the disabled.
    We also prepared a special brochure for all service center 
employees informing them of their responsibility to assist 
those with special needs. It is important to remember that part 
of dealing with this issue is education internally so that 
people who are handling the disaster understand the needs of 
the elderly and the disabled.
    Right now we are developing another manual to aid first 
responders in dealing with disabled persons. In Miami Dade 
County, we put together a group called Elder Links, where we 
train firefighters and paramedics and EMTs to recognize when 
they go on calls of elderly people who are either abused or 
neglected, and we have 24-hour call-in line. As soon as they 
got back in the station, they called in the names and addresses 
of those people. The next day, the next day we got those people 
help and got the right agencies there. I think that is a model 
program that should spread across this country, and it is easy 
to put together through the local fire departments.
    There is an emergency management education network; FEMA 
has sponsored several video conferences on this subject over 
the years to get the word out that the local emergency managers 
and local fire departments have to be very responsive in 
recognizing the needs of the elderly in their communities.
    FEMA has also developed an innovative course that 
introduces service providers to emergency management and 
emergency management to the special needs population. 
Protecting the disabled and elderly persons from disaster is a 
major responsibility of the emergency management community, and 
that includes FEMA; but that responsibility is shared with 
others, with relief organizations like the American Red Cross, 
with fire and EMS services, with state and local governments, 
and with the media. We found a long time ago that we used the 
media as the main form of communications during our hurricane 
disasters. We hold four or five press conferences a day, and we 
tell the public exactly what we expect of them and what they 
need to do to prepare for these emergencies.
    Warning systems need to include provisions for people who 
are deaf and hard of hearing. Televisions stations must live up 
to the FCC mandate to provide emergency information in caption 
form and first responders they must become familiar with how to 
deal with the special needs of this population, and that 
involves training and education for our first responders.
    Building evacuation plans must include provisions for 
warning to deaf persons and special evacuation devices to 
assist mobilely impaired persons, You can't simply tell people 
that shelters are open. You have to provide services for them. 
In Miami Dade County we do a bus transit system--and not just 
regular buses, buses that can handle people with disabilities 
and handle people in wheelchairs and often sometimes people who 
are bedridden. That is what every community must prepare for.
    One final point every member of the adult community or 
disabled community must learn as much as possible what is 
required of them to survive in a disaster. The disability 
rights movement has stressed the dignity and independence of 
the individual as its goal. It is consistent with that 
philosophy that each disabled person, to the extent possible, 
assures responsibility for his or her own safety. So, together 
in a partnership with the local fire department, the state 
agencies and other local communities and the individuals 
themselves we can develop a plan to help elderly survive these 
disasters. Thank you, Commissioner.
    Senator Craig. David, thank you very much. You have someone 
with you?
    Mr. Paulison. Yes. This is Marko Bourne from the Fire 
Administration also.
    Senator Craig. Thank you. Thanks for joining us.
    Mr. Paulison. Thank you for your time.
    Senator Craig. Now, let me turn to Dr. Stephen Ostroff, 
Center for Disease Control and Prevention, better known as CDC 
to most of us at least. Doctor, we thank you very much for 
being here. Please proceed.

  STATEMENT OF STEPHEN OSTROFF, M.D., ASSOCIATE DIRECTOR FOR 
EPIDEMIOLOGIC SCIENCE, NATIONAL CENTER FOR INFECTIOUS DISEASES, 
   CENTERS FOR DISEASE CONTROL AND PREVENTION, DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Ostroff. Thank you, Mr. Chairman, and Representative 
Gilman. Like all other Americans, we at CDC were horrified and 
saddened by the events which took place in New York last fall. 
As the Nation's disease control and prevention agency, however, 
we were also immediately galvanized to action to provide 
assistance to our partners in the City and State of New York 
and in D.C.
    During the bioterrorism-associated anthrax attacks last 
fall, I was the lead field investigator of the CDC team sent to 
New York City to assist the public health in emergency 
response, so I had firsthand knowledge of the tremendous effort 
which took place then and continues to take place to recover 
from the events of last fall. In my oral comments I will 
provide a brief overview of CDC's activities related to 
September 11, but focus more on the subsequent anthrax attacks 
and how we worked to better prepare our Nation's states and 
cities for the threat of terrorism from biological agents while 
assuring that we meet the needs of particularly vulnerable 
populations such as the elderly and disabled.
    Within hours of the September 11 attacks, CDC deployed 
teams of responders to New York City to assist in monitoring 
the impact of the event and deployed assets of the national 
pharmaceutical stockpile to assure essential medical supplies 
and drugs would be available. By the end of that first week we 
had more than 70 personnel engaged in a range of activities 
including monitoring and documenting the patterns of illness 
and injuries in victims and relief workers measuring hazardous 
exposures at the World Trade Center site and recommending ways 
to protect rescue and cleanup workers.
    We also assisted the City Health Department in maintaining 
their high state of alert for other types of events. These 
activities were ongoing when anthrax was first recognized in 
Florida on October 4th and then here in New York City the 
following week. In response we augmented our onsite presence to 
assist in investigating the sources of infection and 
populations at risk and in providing antibiotic prophylaxis to 
thousands of affected persons at the various media outlets and 
postal facilities. Accomplishing these tasks against the 
backdrop of September 11 was an example of Federal-state-local 
corporation at its best and a credit to the diligence of our 
colleagues here in New York City.
    Overall there were a total of 22 cases of anthrax with 11 
being the cutaneous or skin variety and 11 being the 
inhalational form. In New York City there were seven cutaneous 
cases and one inhalation case, with the latter being the only 
fatality. It is worth noting that the inhalation cases were on 
average significantly older than the cutaneous cases. This 
finding was noted even before the last case was detected in a 
94-year-old resident of Connecticut. Since we have little 
historical data on which to base our epidemiologic information, 
we don't know if this difference really has a biological basis 
or is simply a reflection of age difference in work forces in 
the various locations.
    At the peak of the anthrax response we had more than 200 
personnel in the field assisting state and local partners and 
hundreds more personnel at headquarters assisting the effort. 
While we deeply regret each illness that occurred, we are very 
encouraged by the fact that none of the approximately 10,000 
persons who were given antibiotic prophylaxis developed 
anthrax, despite significant exposure to spores in many 
locations.
    Last fall's events revealed serious gaps in our nation's 
public health defenses against biological and chemical threats. 
These include inadequate epidemiologic and laboratory search 
capability and insufficient knowledge base concerning sampling 
and remediation and lack of information concerning infectious 
dose and post susceptibility.
    In addition, the public health system needs to improve its 
ability to convey information and provide treatment and 
preventive measures to large numbers of persons and a way of 
assuring compliance. This will require extensive preparedness 
planning, cooperation across agencies, and between Federal, 
state and local counterparts.
    All states and localities must be prepared to address these 
threats and mount an effective response. This is as true for 
New York City as it is for rural Idaho, although clearly the 
needs and solutions will be different.
    In late January Secretary Thompson announced that a total 
of $1.1 billion in funding would be provided to states and 
large cities to assist them in their bioterrorism preparedness 
efforts. Here in New York the state will receive $29.4 million 
in funds and the city $22.8 million in funds from CDC.
    Agents such as anthrax, smallpox, and botulism are prime 
bioterrorism threats because of their extreme virulence and 
ease of dissemination. If used, they would likely affect all 
segments of the population. However, there are certain special 
challenges for the elderly and disabled. One relates to the 
drugs and vaccines used to treat and prevent these diseases. 
Many have side effects such as dizziness and nausea which make 
them particularly difficult to use for prolonged periods in 
older persons. In addition, these persons are more likely to be 
taking drugs which have known or unrecognized interactions with 
our recommended therapies. These factors must be taken into 
consideration as our state and local partners move forward with 
their preparedness planning so that we can assure that we can 
properly care for and protect our most vulnerable populations.
    Additional research is also necessary to understand 
infectious dose of agents such as anthrax and whether it is 
lower in older individuals than in other age groups.
    In conclusion, CDC is committed to working with other 
Federal agencies and partners, state and local health 
departments, and the health care community to ensure the health 
and medical care of all of our citizens from terrorist threats. 
Although we have made substantial progress in enhancing the 
nation's ability to prepare for and respond to a bioterrorist 
attack, the events of last fall demonstrate that we must 
accelerate the pace of our efforts. Thank you very much.
    [The prepared statement of Dr. Ostroff follows:]
    [GRAPHIC] [TIFF OMITTED] T7851.012
    
    [GRAPHIC] [TIFF OMITTED] T7851.013
    
    [GRAPHIC] [TIFF OMITTED] T7851.014
    
    [GRAPHIC] [TIFF OMITTED] T7851.015
    
    [GRAPHIC] [TIFF OMITTED] T7851.016
    
    [GRAPHIC] [TIFF OMITTED] T7851.017
    
    [GRAPHIC] [TIFF OMITTED] T7851.018
    
    [GRAPHIC] [TIFF OMITTED] T7851.019
    
    [GRAPHIC] [TIFF OMITTED] T7851.020
    
    [GRAPHIC] [TIFF OMITTED] T7851.021
    
    Senator Craig. Doctor, thank you very much for that 
testimony.
    Now, let me move to Assistant Chief of Fire Prevention. 
Alexander, I work really hard at damaging names. Pronounce your 
last name for me.
    Mr. Parzych. Parzych.
    Senator Craig. Parzych. Fine enough. Thank you for joining 
us.
    Mr. Parzych. Thank you for having me.
    Senator Craig. Please proceed.
    You will hold for just a moment.
    Please proceed.

    STATEMENT OF ALEXANDER PARZYCH, ASSISTANT CHIEF OF FIRE 
                           PREVENTION

    Mr. Parzych. I would like to thank the committee to have 
the fire department to have a chance to say something at it. I 
am reading a statement from our Fire Department New York City.
    Although disabled rights, laws and increased community 
awareness have removed some barriers to everyday life for 
senior citizens and people with disabilities, barriers still 
exist. They present an even more significant challenge during 
emergency conditions. September 11, once again, raises our 
awareness of the challenges presented to both the disabled and 
those challenges to assist them in an emergency. In addition to 
these physical barriers such as flights of stairs, change of 
level, no use of elevators, barriers to the acquisition of 
information also exist. Communication that is audible, such as 
TV and radio is not available to people who are deaf or hard of 
hearing, people who have low vision or all blind cannot get 
information from print media or the web site. People who have 
learning disabilities or developmental disability often cannot 
understand information when it is presented rapidly.
    As we review our emergency plans, we must ensure that to 
the fullest extent possible the needs of the disabled are 
considered. This includes but is not limited to: One, we must 
do our best to remove physical barriers. Future designs should 
be universal, including everything from web sites to 
transportation systems to escape routes. Two, do not separate 
the disabled from the plans, but determine how they can be 
included in the planning process, assuring that different 
disabilities are included in all emergency plans and that these 
plans are practiced, practiced, and practiced again. Public 
education can raise awareness. An example of an improved 
procedure would have the building fire safety warden and floor 
searches coordinate with a designated point of contact for each 
organization located in a building such as the personnel 
department to develop a plan along with the Fire Department to 
both locate and evacuate people with disabilities in 
emergencies.
    This plan may be tailored to the person's disability and 
effectively communicated to them. Such a plan would have to be 
updated on a regular basis to keep up with the changes in 
personnel, work status awareness, and new rescue technology. 
The New York City Fire Department is working with the public-
private sectors to enhance its ability to serve all members of 
society. We must be responsible to our ever changing world and 
the new threats that the world may bring.
    Senator Craig. Thank you so much for that testimony. You 
are one now of several panelists who we are especially wanting 
to hear from because you were all here and had to deal with the 
circumstances of September 11 on a daily basis, Alexander, as 
you know and as you are obviously telling us with some of your 
experiences.
    Now, let me turn to the Director of the Office of Emergency 
Management, Richard Sheirer. Richard. Thank you.

STATEMENT OF RICHARD SHEIRER, DIRECTOR NEW YORK CITY OFFICE OF 
                      EMERGENCY MANAGEMENT

    Mr. Sheirer. Thank you, Senator, Representative Gilman. I 
am Richard Sheirer. I am the Commissioner of the New York City 
Office of Emergency Management, and I am pleased to appear 
before you today at the request of Mayor Bloomberg. OEM's role 
in New York City is to coordinate and oversee the preparedness 
for response to and recovery from all emergencies and 
disasters. Our mission includes the protection of proper and 
the continuance of government in the face of disaster; but our 
most important goal is the safety and preservation of lives.
    OEM accomplishes its mission through the collaboration with 
all city, state, and Federal agencies through the use of the 
resources of the Mayor's Office of People with Disabilities, 
the mayor's Office of Aging, the Department of the Buildings, 
Housing Authority, Transit Authority to name a few. We work 
very closely with the American Red Cross, the Salvation Army, 
and are partnered with many advocacy service groups in the 
special needs community.
    New York City appreciates the opportunity to present 
information during this hearing about the unique planning and 
response needs of the special needs community which includes 
persons with disabilities and seniors and, as these populations 
might be impacted, language issues as well. My comments will 
focus on pre-September 11 issues, what happened during 
September 11, and where we are going after September 11.
    Prior to September 11 OEM employed a full-time special 
needs advisor since 1997 who was responsible for the 
development and execution of preparedness initiatives, response 
actions, and recovery efforts working with both the emergency 
management and respondent community as well as with 
representatives from the special needs community itself. We 
developed and coordinated a 4-day conference on emergency 
preparedness for seniors and people with disabilities held at 
Lighthouse International. It was attended by 500 members of the 
community, 25 city response and service agencies, various 
advocacy groups. In addition, attendance was mandated by the 
New York State Department of Health for all home-based agencies 
and residential care facilities licensed within the city.
    We developed and implemented the communications picture 
board program. This is a low tech solution which fills the 
immediate communication gap in emergencies between response 
personnel and persons with disabilities and/or non-English 
speaking persons. It was originally designed with special needs 
community in mind, but the tool has served to have broader 
applications and used for members of the general public. They 
have been placed in every New York City ambulance, in every 
police precinct, in every FDNY certified first responder engine 
company, every hospital emergency department, and with the Red 
Cross and Salvation Army.
    We convene special needs advisory panels for emergencies to 
advise and assist the city in emergency planning for the 
special needs community with representatives from all relevant 
agencies advocacy groups, service organizations participating. 
We have convened task forces in the past and we will continue 
to do so in the future.
    We have ensured that all emergency information materials 
produced and distributed presented or posted on the OEM web 
site contain specific special needs messages which would also 
be available in alternate formats such as braille, large type, 
and audio when requested and translated. We do it in multiple 
languages which 13 review so far.
    During September 11, in addition to the door-to-door 
searches conducted by the fire department, police department 
and rescue workers, an additional search was held, a follow-up 
search, with members of the Steel and Ironworkers, with 
American Red Cross and medic representatives. These teams were 
directed back to buildings known to have large numbers of 
seniors or people with special needs residing in them. We 
confirmed that 50 percent of all the emergency shelters that we 
opened were accessible to people with special needs. We 
confirmed that the dialysis network of which there are 90 
locations was fully functional. We confirmed that the 
residential health care facilities, all 185 of them, were fully 
functional and executed all necessary parts of their internal 
emergency plans. We confirmed that most of the home-based care 
industry had initiated their internal disaster planning.
    Once communication was reestablished it was learned that of 
the city contracted agencies below 14th Street, seven operated 
in the evacuation zone and moved their administration functions 
out of the zone. These agencies continued to serve as clients 
with a team of staff, and every last client was accounted for. 
We ensured that access restriction policies in the frozen zone 
exempted all Access-A-Ride, Paratransit, Meals on Wheels 
deliveries and private ambulances. We also ensured that 
properly identified health care workers were allowed reentry to 
assist their clients and directly to provide medication.
    We confirmed that pharmacies honored appropriate refills 
from bottles without written scripts and/or insurance cards. We 
oversaw the mental health and crisis response activities 
initiated by various agencies and groups for the response 
personnel to direct victims and the city at large, and we 
worked with those groups involved to be certain that the 
experiences of the special needs community are accounted for in 
services.
    Post-September 11. The horrific events of September 11 
tested all New Yorkers. Not only New Yorkers, people from 
throughout our region as Congressman Gilman has said, and 
people throughout the country who came here to help. There are 
a lot of lessons we learned from our individual experiences and 
from those of others. We are in the process of drafting a 
proposal for a comprehensive special needs emergency plan and 
mitigation that incorporates everything we learned.
    We have begun additional research into how additional 
notifications, communications, evacuation technologies and 
policies can be implemented. We will continue to convene the 
various task forces for the special needs community that we 
started long before this incident. And We are committed to 
reviewing existing emergency plans to incorporate the special 
needs community at every level. We will continue to incorporate 
the special needs community in each and every one of our 
disaster drills and our planning for coastal storms which 
incorporates the relocation of anywhere from 250 to 900,000 
people has always included a special needs community and dogs 
for that community.
    Finally, there are a number of issues that can be looked at 
right now by other emergency managers and ourselves. The 
Federal mitigation funding available after a disaster that 
formally was directed only to infrastructure initiative, we are 
very hopeful that it is going be expanded to include more human 
service measures. In my conversations with Joe Allbaugh, FEMA 
appreciates all the problem that we have experienced and while 
this has been an absolute horrible event, it has given us a lot 
of insight into things that we can do, how we can do things 
better, how we can help people better and, more importantly, 
how we can better prepare our country working with the Governor 
Ridge, Joe Allbaugh, and the other agencies. Emergency managers 
in the public and private sector, whether they be the fire 
safety director at a business or a person in a high-rise office 
or residential building, all need to be very cognizant of the 
special needs community, and we will continue to work with that 
community to make sure that we get all relevant information out 
and improve our processes based on our experience as much as 
possible. Thank you.
    Senator Craig. Richard, thank you. I will come back to you. 
You mentioned in your testimony that you are in the process of 
drafting a special needs proposal or proposals with special 
needs elements in it. The question I will be asking you is what 
would be your four top four or five recommendations within that 
proposal. What do you see coming out of your experience that 
you would elevate to a level of priority that either need to be 
done or refined and improved. OK, Thank you.
    Now, let me go to Wayne Osten, Director, Office of Health 
Systems Management. Wayne, thank you for being with us.

 STATEMENT OF WAYNE OSTEN, DIRECTOR, OFFICE OF HEALTH SYSTEMS 
                           MANAGEMENT

    Mr. Osten. Thank you, Senator, and thank you, Congressman 
Gilman, for giving me the opportunity to speak with you today 
on the subject of New York State's emergency preparedness for 
elderly and disabled. The Department of Health's Office of 
Health Systems Management is responsible for overseeing quality 
of care in New York's hospitals, nursing homes, home care 
agencies and clinics. We have been working to ensure that all 
health care providers in New York State have emergency response 
plans in place; and, since September 11, we have been in close 
communication with the New York City Department of Health, 
County Health Departments, the state and local emergency 
management organizations, and the health care providers to 
ensure our readiness in emergency situations.
    Preparing our health care facilities to be able to respond 
to a disaster is not a new activity. We took many steps in New 
York State to develop strong disaster preparedness plans in 
preparation for Y2K. We worked with health care providers, 
including nursing homes and home care agencies, to ensure that 
they all had up-to-date disaster plans in place. We made sure 
they had adequate staffing, supplies, medication, and food, as 
well as backup emergency generators. We saw clear evidence of 
the success of these efforts in response to the events of 
September 11 and in the days and weeks that followed. Hospitals 
in Manhattan and throughout New York City immediately 
implemented their disaster plans bringing in additional staff 
and making beds available. Nursing home and home care agencies 
in New York City also took immediate steps to ensure that those 
in their care were getting the services they needed.
    While we recognized that there were cases of individual 
hardship, home care agencies did an outstanding job of 
providing food, medication, and care to the home bound in lower 
Manhattan in the days and weeks following the World Trade 
Center disaster.
    Since September 11 the Department of Health has been 
working to update its emergency response plan, particularly as 
they relate to nuclear, biological, and chemical events. We 
have focused these activities on four functional areas: First, 
surveillance and detection. How our health care providers can 
quickly identify and report a potential event. Two, response. 
How our health care providers should respond to an event both 
individually and in partnership. Three, communication. How our 
health care providers can maintain communications both during 
and after a disaster; and finally, internal security what steps 
our providers can take to improve their own organizational 
security.
    The model we are working on relies heavily on creating and 
strengthening partnerships between state and local governmental 
agencies and health care providers so that we can provide a 
community-based response in emergency situations. The scope and 
magnitude of September 11 terrorist attack has firmly 
established the critical need for strong local public health 
infrastructure to serve as the first line of defense in 
responding to disasters whether they stem from natural or 
manmade causes. We plan to use this model as a prototype. We 
are meeting with county health departments, health care 
providers, EMS representatives across New York State to assure 
that they have emergency plans that meet the specific needs of 
the communities. Nursing homes and home care agencies need to 
be key components in this process.
    We recognize that the elderly and disabled are particularly 
vulnerable to the effects of a terrorist attack, and New York 
will continue to work to provide for the needs of both of these 
groups. New York State's current nursing home regulations 
require that nursing homes have written disaster and emergency 
preparedness response plans updated at least twice a year with 
procedures to be followed for the proper care of residents and 
staff. Nursing homes also must have plans in place for 
receiving and treating victims of mass casualty. All nursing 
homes must have plans in place for evacuating residents if it 
becomes necessary. This plan must include plans to transport 
residents to another facility or location. The plan must also 
include preplanning for an evacuation with the local 911 
system.
    It should be noted that nursing homes, because they are 
equipped with independent generators and supplies of food and 
water, may be determined to be places to bring victims in the 
event that area hospitals reach capacity. We were in a media 
contact with nursing homes near the World Trade Center 
following the September 11 attacks to determine their capacity 
to handle overflow from area hospitals should that become 
necessary. While this was not required, we did receive a very 
positive and cooperative response from our nursing homes.
    The anthrax threat that followed the World Trade Center 
attacks, including the deaths of two older women in New York 
and Connecticut who had no affiliation with the media or the 
Postal Service seemed to indicate a greater vulnerability of 
our elderly to agents used in bioterrorist attacks. The state 
department of health has been in contact with nursing homes 
about how to handle bioterrorist incidents so that they will be 
prepared to protect the health of their residents and to alert 
public health authorities should any suspicious incidents occur 
within their facilities.
    In conclusion, the New York State's disaster response plan 
for the aging and the disabled will be part of our ongoing 
collaborative effort between Federal, state, and local agencies 
and health care providers to safeguard the health and well-
being of all New Yorkers. Our efforts emphasize the need for a 
community-wide response beginning at the local levels and 
involving partners in neighboring communities. Several weeks 
ago we had the opportunity to meet with President Bush's 
homeland security director, Governor Ridge to discuss our 
emergency response plan. He was both encouraging and encouraged 
by the cooperative efforts that we have embraced in New York 
State. Governor Pataki and the Department of Health are 
extremely proud of the way the city of New York and New York 
State responded to the World Trade Center attack and the 
ensuing bioterrorism incidents. Our response would not have 
nearly been so effective without the strong leadership and 
coordination among many agencies at the city, state, and 
Federal levels. Thank you very much.
    Senator Craig. Wayne, thank you very much. We will be back 
to visit about some of those connective things that you see as 
necessary between that local, state, and Federal partnership 
that we are working on building at this moment.
    Now, let me go to Igal Jellinek, Executive Director, 
Counsel on Senior Centers and Services of New York. Igal, 
welcome to the committee.

  STATEMENT OF IGAL JELLINEK, EXECUTIVE DIRECTOR, COUNCIL ON 
            SENIOR CENTERS AND SERVICES OF NEW YORK

    Mr. Jellinek. Thank you, Mr. Chairman and Representative 
Gilman and members of the committee. I welcome the privilege of 
appearing before you.
    By way of background, the Council of Senior Centers and 
Services is the premier professional nonprofit organization for 
the city's senior service providers representing 265 senior 
service organizations ranging from individual committee-based 
senior centers to large, multipurpose city-wide organizations.
    New York City's five boroughs are home to some 1.3 million 
seniors. Regarding the problems our members and their seniors 
face as a result of the most recent and horrific emergency 
situation on September 11 of last year, I think the good news 
is that we have all learned a great deal from how they coped 
with these problems. As you will hear, their solutions are both 
innovative and compassionate.
    But you will also hear what we feel is the most important 
solution of all; that is, that we as aging services providers 
need to join with members of the communities, members of social 
service agencies, with city, state, and Federal Government in 
the private sector to pool our resources to truly prepare for a 
unified integrated and effective response to emergencies. That 
said, there are five overarching categories of need. Getting 
services to the homebound person and people with disabilities, 
ensuring that our clients have adequate food, water and 
shelter, transportation of people, services, medications and 
food. Three-hundred sixty degree communications with staff, 
seniors, their families, and emergency organization and 
addressing the mental health issues that arise for everyone.
    Let me give you some examples beginning with the homebound 
and disabled population. At Sunnyside Community Center in 
Queens serving 1,500 seniors, they have an emergency planning 
system in place that includes setting up a triage of client 
needs from those who cannot function alone to those who can 
function independently within their home. Part of the emergency 
plan includes updating this information monthly and ensuring 
that the client's levels of need has not changed.
    In addition, Sunnyside keeps both a hard copy and a 
computer file of their clients and shares both with the Fire 
Department and Police Bureau Commander. Thus, in an emergency, 
they immediately know which of their clients need help first. 
When the problems arose on September 11 and in the following 
days, that many of the home care workers could not get to their 
clients because they didn't have official identification badges 
to get through the blockades. These are the small but critical 
issues that our members have alerted us to and that together we 
can remedy.
    At the Stanley Isaacs Neighborhood Center on the upper east 
side of Manhattan, which also provides Meals on Wheels they 
were serving congregate meals in their senior center on 
September 11 when tragedy hit, and they continued to serve 
their seniors that day making sure they were given their lunch. 
But they could not carry out their Meals on Wheels program 
because the trucks that brought in the food were stuck out in 
Queens with the bridges and tunnels shut down. These are the 
problems that occurred across areas of transportation issues, 
communications issues and mental health needs arising from the 
emergency. If a homebound person does not get his or her meal, 
it is first a physical issue but quickly becomes an emotional 
one as well as isolation, fear and panic set in, all with 
terrible consequences for the homebound person. The solution in 
this case a brace of some 24 corporate volunteers from 
Bloomberg Communications delivered Meals on Wheels by going 
door to door on foot, and two restaurants in the area; namely, 
the world famous Le Bernardin and Daniel donated food to feed 
the center's clients.
    Transportation problems became the central issue preventing 
people from receiving needed supplies of food and medications, 
keeping people away from their homes and families, given the 
city's need to close down all bridges and tunnels. It increased 
safety for the island of Manhattan and the outer boroughs but 
sent providers without local emergency backup scrambling to 
cover the necessities that we took for granted before the 
attack of 9/11.
    On the issue of 360 degree communication, that means 
communicating with staff, with clients, with emergency service 
operations, with anyone else you need to reach or who needs to 
reach you. Our members have asked us for help in creating a 
redundant communications plan; that is, multiple ways of 
communicating in an emergency that includes backup if one 
method doesn't work. This is something we need to address going 
forward, including the use of cell phones, backup land lines, 
two-way radios, a special radio band for emergency 
communications and broadcasting, and, of course, ensuring that 
every person has a portable radio with fresh batteries.
    Some of our members have created call down systems where 
people can call in to them and they can try to contact 
emergency services. But when the phone lines were down and cell 
phones not working, this fell apart. Many are worried about 
both what role they need to play in the event of a bioterrorist 
attack and how to protect their seniors. Then there are the 
mental health services which need to be offered in a 360 degree 
manner as well. All our members told us that participation in 
congregate facilities increased, sometimes double what it was 
before 9/11. Senior centers became safe havens for our city's 
older adults, as our members told us of the clear need seniors 
had to be in touch with someone and not be isolated.
    Each of the coping mechanisms our members designed to meet 
the issue raised by the terror attack is ingenious, but therein 
lies a larger problem. They should not have had to work on 
their own to solve the problems they all shared. We need a 
community-level preparedness plan where all stakeholders work 
together. I would like to make some recommendations.
    One develop a network of emergency pharmaceutical services 
that includes the means both to fill medications and get them 
to those who need them. Credit cards did not work for 
prescriptions. We need to find a way to get prescriptions to 
our community-based seniors as well.
    Two, increase in-home services for the homebound including 
in-home psychiatric mental health services and home health aide 
providers.
    Three, ensure that there is a team of restaurants 
identified in the neighborhood as willing and able to provide 
emergency food to a pooled resource.
    Four, develop an emergency support system for the in-home 
services including emergency respite care and communications 
abilities for in-home caregivers.
    Five, create a secure system of photo identification for 
professional health care and senior service workers, even for 
the Meals on Wheels providers and the drivers, that will enable 
them to get through to their homebound clients in an emergency. 
Ensure that each facility has done a risk assessment, audit of 
its hardware, software, insurance coverage, and physical plant. 
Develop a city-wide, statewide and national emergency 
transportation plan. Each community needs a contingency plan 
for moving people, including those in wheelchairs, emergency 
supplies, and medication. Upgrade communications systems 
including trunks of telephone lines and emergency response 
systems and develop redundancy communication plans including 
instructions on use of emergency communications products and 
tools of backups. For Meals on Wheels programs, offer a sixth 
meal or a shelf stable emergency pack in case of interruption 
of service. Ensure that on an organizational level each 
organization develops an emergency plan and that it is kept 
updated, and teach them to remain flexible depending on the 
nature and site of the emergency. Communicate with your clients 
and staff immediately and continuously as possible. Ensure that 
people do not feel isolated or abandoned. Understand that your 
staff may feel a need to offer help and to be helped. Offer 
group discussion sessions and if possible allow staff release 
time for volunteer efforts.
    One of the things that we found during this process is that 
the seniors acted as a resource because they have gone through 
this in World War II and other experiences, and they were 
sometimes a resource to the staff who have never gone through 
this before. In short, our message is that we never know what 
natural or unnatural disaster will strike, but it is never too 
soon to be prepared, especially for our nation's seniors. Thank 
you.
    Senator Craig. Mr. Jellinek, thank you very much.
    Now I am going to turn to Mr. Michael Benfante. Michael is 
unique in the sense that he was there, an employee of the 
Network Plus Company, he worked on the 81st floor of Tower One 
at the World Trade Center, and on September 11 Mr. Benfante 
helped evacuate a woman with rheumatoid arthritis with the help 
of an evacuation chair. So, we really do appreciate your being 
here today. We look forward to your testimony.

    STATEMENT OF MICHAEL BENFANTE, EMPLOYEE OF NETWORK PLUS

    Mr. Benfante. Thank you, Senator. First I would like to 
thank you Senator Craig and the other committee members for 
inviting me to participate in this U.S. Senate Special 
committee hearing regarding emergency preparedness for the 
elderly and disabled. On the day of September 11 I consider 
myself to be one of the fortunate ones, fortunate in many 
regards which I am going to relay to you and to this committee.
    First after the impact of the first airplane hitting the 
north side of Tower One above my office, I was fortunate to 
have the ability to stay calm to direct 28 of my sales reps out 
of the office and into the stairwell, fortunate to be in the 
highest office of the 81st floor of Tower One, to come away 
from that day without a casualty, fortunate to have the 
strength and composure to carry down Tina Hansen 68 flights, 
fortunate to have that emergency evacuation wheelchair there to 
assist me in doing so, fortunate to have my coworker John 
Cerqueira along with me to help me carry her down 68 flights.
    It was also very fortunate encounter firemen on the fifth 
floor where we were stuck for a while who eventually directed 
me out of Tower One and through the destruction and onto the 
West Side Highway where they further directed me to an awaiting 
ambulance where I was able to put Tina Hansen into, where she 
eventually made it to safety. I was fortunate to have about 95 
of those 102 minutes that Congressman Gilman mentioned earlier, 
the time from the initial impact to the time of the eventual 
collapse of the second tower. What I will do now is try to 
explain to you what occurred in those 95 minutes from start to 
end to see if it can assist you in this hearing, if that is 
what you would care to listen to.
    Like Senator Craig said, I was located on the 81st floor of 
Tower One. The first plane hit above my office on the north 
side of the tower. I was fortunate to be in the southeastern 
corner of the tower, 7,000 square feet, where I had 28 of my 
reps there. I don't know if you are aware that the actual 
floors of the World Trade are about a acre large, so I actually 
heard my reps screaming before I actually felt the impact 
because I was on the south side of the floor. My office 
actually overlooked the Statue of Liberty. So, I heard one of 
my reps screaming from the impact before I actually felt the 
impact, and I immediately rose from my desk and ran out to the 
office and screamed for everybody to remain calm. I looked out 
my window behind me and I saw debris and fire falling from the 
building. And then I immediately ran out into the main office 
through my reps and out into the hallway to see what the 
destruction was like out there, and I saw that the stairwell 
was clear. I did not know what was occurring at that time. I 
thought it was a gas explosion or something, so I told everyone 
to get to the center of the floor where, believe it or not, 
they listened to me and came together and eventually made it to 
the stairwell and began their descent down the stairs.
    While I was directing them out, someone said that someone 
was stuck in the bathroom, so I ran back into my office, 
grabbed my cell phone and grabbed my bag, ran down to the men's 
room in the main hallway, ran over some debris, did the 
combination on the men's room door, opened it where there was a 
lot of destruction in there, but there was nobody in there, 
fortunately, ran back into my office and made sure everybody 
had already left the office, so it was just myself and an 
assistant branch manager. Everybody had already left and I 
began my descent down the stairs.
    I made it down about one flight and tried to assist two men 
that were stuck in an elevator halfway between the landing. Me 
and another gentleman, I don't recall who it was, we ran into 
an office and tried to grab something to wedge the doors open 
of that elevator. It was a bathroom key with a long stick at 
the end of it. It was one of the devices we used--I think it 
was a leg from a chair, and we tried to wedge the doors open, 
but they were buckling front to back instead of opening 
horizontally, so I felt that we were going to do more harm than 
good, so I left those devices with those gentlemen and wished 
them good luck. I don't know what actually eventually happened 
to them, and I continued on down the stairs.
    On my way down I passed many fire extinguishers in the 
stairwell. People were screaming that there was fire on the 
77th floor. People still--we did not know what was going on. I 
grabbed the fire extinguisher on the 72nd floor and started 
heading back up, but I was getting nowhere fast because of the 
people coming down the stairs. So, I put down the fire 
extinguisher and continued on down the stairs. On the 68th 
floor I stopped out onto a floor and where there were people 
and I was trying to direct them out into the stairwell. As I 
looked down the hallway, there were large glass doors, and 
there were these women just standing there behind the glass 
doors. And it seemed to me kind of odd with all this hysteria 
that they were just standing there, so I ran down the hallway. 
I banged on the door where they eventually pressed the button 
to open the doors. And as I was walking in to scream at them to 
evacuate, one woman stepped aside and there was Tina Hansen in 
her motorized wheelchair. I asked her if she needed help, and I 
also noticed an emergency evacuation wheelchair still strapped 
together on the floor besides the women. Nobody was doing 
anything, and pretty much everybody had already evacuated 
except for these women, and Tina was trying to calmly tell me 
to use this chair, so I was frantically trying to open the 
chair where I eventually saw a lever toward the back, flicked 
the lever, the chair opened up, and I took, grabbed Tina from 
her wheelchair and strapped her into this wheelchair where I 
initially had her carrying her on the back and I had my 
assistant manager carrying on the front and another gentleman, 
and then I saw my coworker John Cerqueira and asked for his 
help. He took one side of the front, I took one side of the 
back and different gentlemen switched on and off on the back, 
and we proceeded to carry her down 68 flights.
    On the way down it was relative calm. Everybody was 
helpful. For the most part it was clear. It did get backed up 
from people evacuating the different floors and the flow of 
traffic coming into the stairwell. We did switch stairwells a 
couple of times to try and make better time.
    There was a, I think, an emergency. We encountered the 
firemen I guess around the forties full gear, tools and on 
their way up trying to assist people in evacuation, exhausted 
from climbing 40 flights with all that gear. There were people 
trying to help them. They did not know what was wrong with 
Tina. They thought maybe she was ill. They did indicate that on 
the 21st floor there was a medic station set up where we could 
set her down; maybe they could assist her.
    As we got closer to the 21st floor, I asked her if she 
would like me to put her down she was relatively calm and I 
asked her again I will take you all the way out, and she said 
OK, so we never let go, and I believe it was when we got down 
to the tenth floor, around the tenth floor was maybe when Tower 
Two was starting because we felt the rumble and some smoke 
started to filter into the building.
    Then we went into a floor landing. I believe--I don't know 
if it was a Port Authority or some type of maintenance floor 
because it was very dark. It was very narrow. There were 
lockers and there were no lights, but the firemen were there to 
assist us. They had lights and were trying to direct us. We 
were going a couple of different ways, but I think because of 
the collapse of the tower they could not find a safe way for us 
to get out, so it started filling up with smoke, and there was 
some panic there. Meanwhile we are lifting Tina and carrying 
her over debris or trying to move the debris and carrying her 
through and eventually a fireman tapped me on the shoulder and 
said let's try this way again, and we were like, ``We already 
went that way.'' We followed him and took us to a stairwell 
where I barely remember going down the last four flights. At 
that point it was myself and John Cerqueira and a firemen 
carrying Tina from the back, and we made it down to the lobby 
of Tower One on the West Side Highway side of the tower. So, if 
you look to your right, it is where the turnstiles are to go up 
the tower and the security desk to the left and massive 
destruction where firemen directed us through the broken glass 
of the tower out into the West Side Highway, where I put Tina 
into the ambulance.
    I as I was looking up trying to take in the enormity not 
even realizing the enormity of the situation, I still did not 
realize that Tower Two was down, I started to walk away and 
heard an explosion and Tower One was collapsing behind me, so I 
just ran for my life and dove under a truck. As the debris and 
the smoke eventually subsided, I got up and walked away. I will 
answer any questions that you may have regarding the hearing.
    Senator Craig. Michael, you have answered all the 
questions. You are obviously a very brave young man. We will 
come back to you. There are a couple questions I would like to 
ask you. I would like to hear from both Andrea and Marion here, 
who are with us.
    I understand, Josefina, you have to leave us to catch an 
airplane in the somewhat immediate future. Is that right? Let 
me come back then and ask you a question before we get final 
testimony. I had hoped we could get to Marion before you left, 
but I do want to ask you the question as it relates to 
preparing the aging network and nursing homes for disasters and 
the kind of coordination that is necessary.
    You have had past experience in dealing with seniors in 
emergencies. I guess my question really is what is the kind of 
interagency coordination that you are participating in now that 
is in part a direct response to the September 11 experience?
    Ms. Carbonell. Thank you, Senator Craig. I think my 
experience again goes back to, just like Mr. Paulison, 
Hurricane Andrew in Florida, particularly working over 29 years 
with the elderly community and disabled community in Miami. I 
think many things changed after 1992, and we are working to 
expand and to upgrade the material in our disaster preparedness 
plan based on the recent experience.
    But the most important thing is No. 1, that we need to do a 
better job of ensuring that there is a special needs roster. We 
developed the kinds of data that identify people that have 
special needs and that in case of emergency that data base is 
available in one location and could be spread into other areas. 
So, it means that we work with 56 state units on aging. We also 
work with 660 area agencies on aging. We have over 29,000 
community providers throughout the country that work day in and 
day out with individuals both in the congregate senior center 
settings but also that serve homebound clients. So, we make 
need to make sure that in the process of revising our disaster 
preparedness manual, we take in recommendations from experts, 
such as many around this table today, to incorporate those 
recommendations into our technical assistance manual. We can 
never be too prepared. We don't know where and when our next 
emergency will hit, whether it is manmade or whether it is 
natural disaster. So, definitely being able to have protection 
in place and surveillance like we heard from Mr. Osten and 
being able to have a response plan and a backup system, better 
communications and ensuring that we work collaboratively like 
we are doing at the department level right now with CDC, with 
HRSA and CMS and other partners with FEMA and the local 
emergency preparedness folks to integrate all of those plans 
together. It starts at the Federal level, Senator Craig, and 
that is what we are beginning to do right now, and we hope to 
have a more up-to-date plan in place hopefully by the end of 
this year that will address not only a manual on how to, but 
will also increase the training of the individuals on the field 
to the 660 AAAs throughout this country.
    Senator Craig. Thank you very much. Let me turn to 
Congressman Gilman. The Congressman is going to have to leave 
us in a few moments, so I want him to ask any questions he 
might want to and any comments he would want to make, and then 
we will come back to you ladies for final testimony and the 
balance of the questions I have to ask. Ben.
    Rep. Gilman. Again thank you, Senator Craig, for conducting 
this hearing on behalf of the Special Committee on Aging. I 
think the recommendations coming out of this will be helpful to 
every agency throughout our nation who is trying to prepare 
properly for emergencies of this nature. I want to congratulate 
Michael Benfante for his dedication and his heroism and what he 
described to us of the method of saving one of the disabled. I 
think that will stand out in our memory as we recall this 
hearing, what we have to do to try to perfect our systems. 
Please excuse me, our good nursing folks, Andrea and Marion. 
But I have your testimony and I will look at it very carefully. 
I have to go to another meeting very quickly, but I want to ask 
just two quick questions, Senator, if I might.
    Dr. Ostroff, you talked about all your recent initiatives 
on behalf of the center, but I heard a report recently that 
there was a toxicity found in the air following the 9/11 
tragedy, and it had not been publicly released nor disseminated 
to those who were in need, particularly our rescue workers. Is 
there some substance to that.
    Dr. Ostroff. I don't know all of the details of that, 
Congressman. I work in the infectious part/disease part of the 
agency. I know that there was an a hearing that took place this 
morning that discussed many of those issues, and I know that 
there are ongoing concerns about some of the air quality issues 
around the World Trade Center.
    Rep. Gilman. Well, then, let me ask Wayne Nelson from our 
New York State Health Department. Wayne, can you tell us 
anything about that toxicity and why the information was 
disseminated to the rescue workers?
    Mr. Nelson. No. Unfortunately, Congressman, I don't know 
the details of that.
    Rep. Gilman. I hope that maybe you can provide it to both 
of us, Senator Craig and myself, and we would welcome knowing 
more about it.
    Mr. Sheirer, on behalf of the--with regard to the FEMA----
    Senator Craig. Richard just stepped out.
    Rep. Gilman. Oh, Richard stepped out? Well, I am sorry. I 
would like to know just more about, and I will ask our FEMA 
fire coordinator, what about the joint meetings of all of the 
interested parties? How often do you get together to review 
what our good Deputy Secretary was saying about coming together 
to make plans? How often do you bring your agencies together?
    Mr. Paulison. I don't know the answer to that. I have been 
in FEMA a few months. But I can tell you that what I testified 
before is absolutely accurate. It starts at the top with the 
Federal Government. We have to get our act together first if we 
are going to expect the local responders to act. That is the 
message that we are taking back to the FEMA Director. FEMA 
should take the lead in gathering some of these agencies 
together to come up with some definitive plans.
    Rep. Gilman. I hope you follow up on that.
    Mr. Paulison. Absolutely.
    Rep. Gilman. I think interagency communications and 
planning is so important in what we are doing.
    Mr. Paulison. It has to be. Everybody has to take ownership 
in this. Everybody has to take ownership from the individual 
all the way up to the top. If we do that--the ideas are out 
there. Everybody around the table has the same message. We 
listened very carefully. Laid out the same steps, the five or 
six steps of what had to be done. We know what the issues are, 
and I am sure we are going to have another testimony to tell us 
very clearly what the issues are, what they see from their end 
of it, and we just have to get together and resolve it. That is 
a message that I am going to take back to the FEMA Director.
    Rep. Gilman. Hopefully they will listen. I want to thank 
you all for your recommendations, for being here today, Senator 
Craig for conducting this hearing. Mr. Jellinek, you had good 
recommendations. I hope there will be other good 
recommendations of that nature passed on to us from both the 
Senate and the House. Thank you very much. Please forgive me 
for having to go to another meeting. Senator Craig, thanks 
again for inviting me to participate. Thank you.
    Senator Craig. Congressman, thank you very much. We are 
pleased you could join with us today.
    Let us now complete the testimony before I follow up with 
some questions. I would like to ask Andrea Dale, a nurse with 
the Visiting Nurse Service of New York to offer her testimony 
at this moment. If you could pull that mike as close as is 
comfortable. There you go.
    Ms. Dale. Mr. Chairman and members of this committee, I am 
Andrea Dale. I am a registered nurse.
    Senator Craig. Andrea, we are going to ask you to hold 
until the tape gets changed.
    All right. Thank you.

  STATEMENT OF ANDREA DALE, VISITING NURSE SERVICE OF NEW YORK

    Ms. Dale. Mr. Chairman and members of this committee, I am 
Andrea Dale. I am a registered nurse appearing before this 
committee for myself and on behalf of the Visiting Nurse 
Service of New York. I am joined today by Marion Anello, a 
resident of lower Manhattan. I welcome the opportunity to join 
you today along with the other witnesses in your efforts to 
learn firsthand experience of the September 11 disaster and the 
days that followed. I hope my experiences during those days as 
a field nurse working in lower Manhattan will help the 
committee better understand the environment and the challenges 
at that time.
     There are many things to be learned from September 11 
terrorist attacks, too many to list here. I would like to take 
a few minutes to highlight what to me are important lessons to 
learn. First is that emergency preparedness planning must 
recognize that homebound patients are spread throughout our 
neighborhoods. As an example, VNSNY provides home care services 
to over 24,000 patients each week throughout the five boroughs 
of Manhattan, of New York City, and in Nassau County. Many of 
our patients are homebound, chronically ill and elderly. Many 
live alone. They are dependent on receiving services such as 
wound care and medication administration on a daily basis. This 
required home health aides to help them perform the activities 
of daily living. Particular concern must be given to those who 
are wheelchair bound and unable to leave home without 
assistance.
    Before September 11 I was one of 20 visiting New York 
nurses assigned to see active home care cases in lower 
Manhattan. My area extended from Canal Street to Battery Park, 
from Church Street to the Hudson River. I care principally for 
elderly patients and I recognize my responsibility to care for 
them. Many of my elderly patients have few surviving family 
members and small circles of friends. I must go to them. They 
do not and cannot come to me.
    VNSNY realized early on September 11 the challenges we 
faced given our patient population and the fact that 1,600 of 
our patients lived in the restricted area below 14th Street. I 
was responsible for 30 of these patients. No public or private 
transportation was available in this area for many weeks. Phone 
lines, land and mobile, did not work or they were unreliable. 
Stores, including grocery stores and pharmacies were closed. 
Resident and emergency workers wore masks. People were 
instructed to keep their windows closed due to the heavy smoke.
    In the area below Canal Streets there was a lot of physical 
damage and access was very limited. Essentially it was a war 
zone. On September 11 many of my patients saw from their 
windows the collapse of the World Trade Center buildings and 
the devastation and chaos that enveloped the area. For many it 
provoked memories of World War II and other traumatic events 
they had experienced over the course of their lives. As my 
colleagues and I continued to provide nursing therapy and other 
home care services, we were struggling to meet the mental 
health needs of our patients.
    Second, emergency preparedness must include the resources 
to transport care givers to their patients as well as being 
able to transport patients to the medical care facilities. On 
the morning of September 11 I was a few blocks north of the WTC 
en route to my patients when the second airplane crashed into 
the tower. I immediately contacted my team manager who advised 
me to return home, and I was able to get home quickly, as my 
home was a little more than a mile north, and I watched from my 
balcony as the towers collapsed.
    I contacted some of my patients living in Tribeca, and 
hearing the distress in their voices as we talked, I decided I 
needed to get back downtown I packed a backpack with some 
supplies and I headed back downtown on foot to them as all 
transportation had already stopped below 14th Street. After my 
checking my patients door to door and caring for those who were 
scheduled to be seen that day, I began to follow up on those 
who had been evacuated. By the end of that first week a pattern 
was established--miles of daily walking to care for the sick 
and help provide for their basic needs such as food. Where 
possible we contacted patients' relatives, passed along news of 
their family members or arranged for patients who had been 
staying in shelters to be brought to their family members' 
home.
    The point is that I was only able to get to my patients 
because I could walk the distances that separated us and I knew 
where they had been evacuated to or where they lived. Emergency 
preparedness cannot always assume this will be the situation.
    Three, emergency preparedness will depend on reliable and 
predictable communications. My cell phone worked for a few 
hours immediately following the attack and then became useless. 
Our residential phone service lasted a little bit longer and 
then became less and less reliable. Using these phones for a 
while I was able to remain in contact with my team manager in 
the hours following the attack. During these critical hours 
immediately after the attack I was essentially operating 
without depending on means of communicating with our central 
office. This indicates I believe that it is such service be 
made dependable and reliable in a time of crisis with a wider 
use of radio communication be adopted for care givers.
    A corporate lesson is to be prepared. VNSNY learned many 
lessons from this tragedy. We are working with government 
agencies to address public health issues that might arise in 
the immediate future. For fine-tuning our disaster planning, we 
have developed our comprehensive bioterrorism readiness plan. 
Most important, out of our disaster recovery plan was done as 
soon as the first plane hit, all our field staff knew their 
first priority was to their patients. Management did turn to 
the jobs to help the field staff do this. Senior management 
communicated with the city, state, and Federal agencies to 
request permission to enter the frozen area. New York City 
Office of Emergency Management, Police Department Centers for 
Medicare and Medicaid Services all offered greatly appreciated 
assistance and support.
    In the days after the attack it was essential to 
communicate with field staff to make sure they had all the 
necessary information on their patients, especially new ones. 
Masks were obtained to wear in the ``frozen'' zone. Our 
information technology unit had a backup system in place so 
that no data were lost in communication. Patient information 
was maintained with the staff through portable computers.
    As noted, there were problems with communicating with 
staffs since our phone lines broke down. In response VNSNY is 
in the process of formalizing a business continuity plan. We 
are developing policies procedures to ensure that business 
operations can continue in the face of outside forces affecting 
our buildings, our systems, our communications with staff. It 
must include the assessment of the current environment, 
development of business and technology requirements, strategy 
and planned development and planned validation through mock 
exercises. A dedicated VNSNY project team was formed in 
November 2001. This practice was to provide project oversight 
to represent all corporate entities. Contingency plans need to 
be developed which show redundancy based on a variety of 
scenarios: fires, floods, bomb scares, and bioterrorist 
attacks.
    Bioterrorism readiness--Home Care and VNAs must play a 
role. As our nation begins a major readiness initiative in 
anticipation of an unimaginable attack, it is important to 
recognize the vital role to be played by home health agencies. 
VNS and VNAs across the country have more than 100 years of 
public health and immunization experience that should be 
brought to bear on the local bioterrorism, readiness and 
immunization planning process.
    Home health care is not just an alternative to inpatient 
care. It is a front line defense to any biological or chemical 
threat this country may face and a key component to the public 
health system. For over 100 years VNAs have immunized and 
vaccinated hundreds of thousands of people in their homes and 
at community sites. VNSNY under contract with the CDC screened 
and immunized postal workers against anthrax in New York City. 
In the event of a widespread epidemic VNAs and other health 
agencies in each city can provide the experience and the 
infrastructure to deliver care to every community.
    During the days and hours following September 11 VNSNY 
staff----
    Senator Craig. Andrea, could you sum it as quickly as 
possible. Thank you.
    Ms. Dale: We have developed a bioterrorism readiness plan 
as part of our overall disaster planning and will be doing 
drills and regular correspondence as it will be periodically 
updated. We thank you.
     [The prepared statement of Andrea Dale follows:]

    [GRAPHIC] [TIFF OMITTED] T7851.023
    
    [GRAPHIC] [TIFF OMITTED] T7851.024
    
    [GRAPHIC] [TIFF OMITTED] T7851.025
    
    [GRAPHIC] [TIFF OMITTED] T7851.026
    
    [GRAPHIC] [TIFF OMITTED] T7851.027
    
    [GRAPHIC] [TIFF OMITTED] T7851.028
    
    [GRAPHIC] [TIFF OMITTED] T7851.029
    
    [GRAPHIC] [TIFF OMITTED] T7851.030
    
    [GRAPHIC] [TIFF OMITTED] T7851.031
    
    [GRAPHIC] [TIFF OMITTED] T7851.032
    
    [GRAPHIC] [TIFF OMITTED] T7851.033
    
    [GRAPHIC] [TIFF OMITTED] T7851.034
    
    [GRAPHIC] [TIFF OMITTED] T7851.035
    
    [GRAPHIC] [TIFF OMITTED] T7851.036
    
    [GRAPHIC] [TIFF OMITTED] T7851.037
    
    [GRAPHIC] [TIFF OMITTED] T7851.038
    
    [GRAPHIC] [TIFF OMITTED] T7851.039
    
    [GRAPHIC] [TIFF OMITTED] T7851.040
    
    [GRAPHIC] [TIFF OMITTED] T7851.041
    
    Senator Craig. Well, thank you very much. I do want to get 
Marion's testimony and then I have several questions I want to 
ask and still try to keep us all on schedule here.
    Next our last testifier and I must tell you, Marion, 
certainly not our least. We thank you for your patience in 
being with us. Marion Anello, an elderly patient of Ms. Dale's, 
has her own personal experience to tell us out the very 
experience and circumstances that Andrea Dale found herself 
serving. So, if you would please proceed. There you go. Thank 
you.
    Ms. Anello. I thank you for having me. I am Marion Anello. 
I am 80-years old. I live a block and a half away from the 
World Trade Center. I was working that day on the Board of 
Election in my building on the second floor. When the first 
plane hit the tower everything shook: the windows, the blinds, 
everything. We didn't know what happened. When the second one 
hit, the maintenance man came downstairs and said the World 
Trade Center was just hit. We have a 60-inch television 
downstairs in the senior citizens room, pulled it out, and we 
put it on. When we saw what happened, it was a terrible thing. 
We closed up the Board of Election because there was nobody 
coming down any more, so we got a phone call to close it. Put 
everything in the back of the machines and we closed it and 
went upstairs. I live on the fourth floor with my husband. When 
I sat down on the chair I saw the second building come down. It 
crashed right in front of my face. It was terrible. All I heard 
was glass crashing, crunching. It was a terrible thing to see. 
Not to see the other two buildings over there was more 
disaster.
    Well, my husband and I were talking about it. What could we 
do. These are crazy people anyway. Two weeks later I landed in 
the hospital with a lung infection from all the smoke and the 
debris and everything from downtown. I was in the hospital for 
8 days. I came home after the eighth day. Now my husband wanted 
to come and see me in the hospital. I told him not to come 
because he is blind. I told him I am coming home, but he came 
anyway. He came home. He was on his way home in a taxi, 
somebody got him a taxi downstairs. He got to Canal Street, the 
cop wouldn't let him pass. So the tax driver said I have a 
blind man here. He lives at 310. He's got to get home. So he 
said, you are very fresh for a blind man. He said, ``What do 
you want me to do? Walk? I can't walk.''
    Anyway, another police car passes and says what is the 
trouble? He said--the taxi man said I have a blind man over 
here. he said he has got to get home. He lives at 310. He said 
go ahead. Anyway, he called me in the hospital. I said how did 
you get home. Why are you so late? He says they wouldn't let me 
through beyond Canal Street so anyway, that is my story.
    Oh, yes, excuse me. I am a little nervous, you'll have to 
excuse me. OK. That night of September 11, getting back to my 
story, they evacuated us from the house. All of us had to get 
out. We had no hot water. We had no heat, no water. We all had 
to get out of the building. Five hundred tenants had to get 
out. They had three buses waiting for us outside to take us to 
the Washington Irving High School. I lived in the shelter for 8 
days. I tell you, it wasn't very nice and that is nothing like 
home.
    They brought us home after the eighth day, and I came home 
I was so glad to have my house and to sleep in my own bed. I 
slept on a cot for 8 days. I don't know how the homeless do it, 
but God bless them anyway. That is all I have to say. I am just 
happy to be home, that is all. I hope it doesn't happen again.
    Senator Craig. Marion, thank you for your testimony. That 
is extremely valuable because for those of us who attempt to 
look at it through papers and reports and policies sometimes, 
in all fairness, we miss the emotion, and it is very important 
that we understand that as we work through these difficulties 
and develop and coordinate programs.
    Andrea, you obviously serve the area that Marion lives in, 
and you talk about the preparedness or the efforts now at 
greater levels of preparedness and coordination. If I were to 
ask you what would be the top two or three lessons you have 
learned and things would you want to change to improve the 
circumstance you were in following September 11, what would 
that be?
    Ms. Dale. Well, of course we had difficulty with the 
communication. I had two----
    Senator Craig. My notes said communications right off the 
top.
    Ms. Dale. I had two phone services at home, one local, one 
long distance, and the service at home is undependable. I had 
my cell phone and that wasn't working downtown at all. My cell 
phone worked the first day, so I wasn't able to make contact 
with my office. We have computers. We communicate by phone 
lines, and we also had trouble with the phones at my office, so 
an alternative means of communication that would be more 
dependable would be one thing I would consider very important.
    Second, you know, I don't mind walking and I had it very 
easy compared to a lot of people, but I had to walk miles and 
miles every day just to get to the checkpoint, through the 
checkpoint, and to my patients and back and then to go see some 
who were evacuated. So, I got it all done in the course of a 
day. I had some all the way over in the shelters on East 17th 
Street because their care needed to be continued despite the 
evacuations. I felt if there could be a better way to compile a 
central list of knowing who had been evacuated. There were 
certain people I had to put in more efforts to try to determine 
whether or not they had actually been evacuated because they 
had the right to refuse. It wasn't mandatory, and some had to 
be persuaded. So as it turned out, there was one gentleman I 
had in the Battery Park City area and Tribeca. I had a very 
large area at that time. My resident in Battery Park City had 
refused to be evacuated and I think it was probably because he 
couldn't take his dog with him. He landed up on the floor and I 
wasn't allowed to go down there, and I had been assured 
everybody had been evacuated. He was eventually found on the 
floor and he had sustained a fracture having fallen when it was 
dark. Those would be three key items.
    We have, of course, emergency disaster planning. I don't 
think we had anticipated anything quite like this.
    Senator Craig. Well, I doubt that any of us could possibly 
have imagined this, and you are right. Although our planning 
must encompass worst case scenarios as best the human mind can 
create them and then develop systems for them. You mentioned an 
elderly fellow staying behind because his dog could not go I 
assume.
    Ms. Dale. Pets were not allowed to go. They were not 
brought to the shelters, although the ASPCA did establish a 
plan to go around collecting pets if you could give them a 
house key. Lots of people in New York City are so devoted to 
their cats and dogs.
    Senator Craig. We all are. I have pets and I am just 
wondering in your recommendations where in the case of 
evacuations not being mandatory and people not wanting to leave 
because of their pets is there anything that mentioned that or 
talks to that as to how we might be able to deal with that 
sides of the dimension of people's willingness to participate?
    Ms. Dale. No, there is nothing mentioned I just mentioned 
because I did spend a lot of time just investigating after I 
had determined where most of my patients were then I went to 
look for people I had a harder time finding. I interviewed a 
lot of people. I spoke to police officers and military police. 
We were going to try to enter a locked building. The second day 
I found a military policeman who was able to tell me that this 
couple I was concerned about had been persuaded to leave 
because they were going door to door as had been mentioned 
earlier. They did a really good job. They went around and told 
everybody you have 5 minutes to leave. Get your medicine and we 
will be back for you. Well, they didn't state it was--I think 
eventually it was mandatory in one of my buildings in that 
building. I think they had mentioned something about it. They 
suspected gas leaks or something.
    Ms. Anello. That is right.
    Ms. Dale. I think they mentioned suspected gas leaks.
    Ms. Anello. That is why we were evacuated. We had gas 
leaks. No water, no heat.
    Senator Craig. Thank you both very much. That is valuable 
testimony, to have firsthand testimony as to the actual area 
itself and people your age and needs, Marion, and how they got 
served. Thank you very much.
    Ms. Anello. She was very helpful to me. That is right. 
Bless her heart. She is a good girl.
    Senator Craig. Michael, prior to your experience on 
September 11 had you ever had any emergency training or any 
kind of training within your office complex that assisted you?
    Mr. Benfante. Other than routine fire drill to the extent 
where you leave your office and you were shown where the 
stairwells are on each level.
    Senator Craig. Were those fire drills taken seriously by 
your office and your staff?
    Mr. Benfante. Yes. For the most part, we all followed the 
procedure. I do remember that you are supposed to have a 
designated fire marshal, so to speak, for each office and then 
a secondary one. Just might want to consider where there are 
offices with turnover, you might want to consider just someone 
that is always there not so much as an outside sales office. I 
happen to be one of those I think I was more of a secondary one 
than a tertiary one, but other than just routine fire drills.
    Senator Craig. The wheelchair that you used to bring Tina 
out, obviously you could not have brought her out on her 
electric wheelchair.
    Mr. Benfante. She was actually adamant about bringing that 
down, but it was too big. I just told her to leave it behind.
    Senator Craig. Well, now was that portable or emergency 
wheelchair part of the office or was it there because of her 
situation? What caused that wheelchair to be there at the time?
    Mr. Benfante. It was actually because of Tina. From what I 
understand, Tina was also working at the World Trade Center 
during the 1993 attack and as a result of that attack, there 
were certain procedures put in place, I think one of them being 
that emergency wheelchair.
    Now, I think it should be mandatory that any person with a 
disability that is confined to a wheelchair, whether they 
remember to have one or demand to have one there or not should 
be there, should be required. So I don't know if it was part of 
a requirement or, if it was just part of Tina requesting it be 
there.
    Senator Craig. Well, I am sure it is fortunate for both 
Tina and you and your partner that it was there.
    Mr. Benfante. Yes, very fortunate. It just made the 
evacuation a lot easier.
    Senator Craig. Well, Michael, your testimony is special. I 
am sure that many people have praised you, as they should, for 
your help and persistence under those most difficult 
circumstances. I think all of us when we hear of people like 
you and testimonies given question ourselves over whether we 
could have performed as well under those circumstances. My 
congratulations to you.
    Mr. Benfante. Thank you, Senator. Just one thing.
    Senator Craig. Please go head.
    Mr. Benfante. All things considered, I agree with 
Congressman Gilman that it was a tremendous emergency response. 
I know there were many lives lost, but I think just in the way 
that our Fire Department and Police Department and rescue 
workers responded there were more lives saved and it just 
should be acknowledged.
    Senator Craig. Well, I appreciate you for saying that. 
Certainly I am not critical and I don't know of many who are. 
We look at the circumstance and the magnitude of the situation 
and recognize really how well everyone performed. What we are 
in pursuit of now whether it is FEMA or CDC or others is where 
do we go from here. Several of you mentioned our preparedness 
for 2000 and a suspected problem, and there was a major 
investment nationwide at that time for communications systems 
and computerized systems as related to a potential shutdown 
which did not occur. But it did create a preparedness that 
obviously has helped us and helped this situation to some 
extent. No, I don't think anyone is being critical, and I thank 
you for saying that. The question is where do we go from here 
to improve upon both services coordination and Federal, state, 
local systems working together thank you.
    Mr. Jellinek, you mentioned your experience with a private-
public environment. I guess my question to you is what 
obstacles did you encounter as it relates to the cooperation 
between the public-private sector?
    Mr. Jellinek. I think overall it was a tremendous response 
working together. I think New York is such a heavily populated 
city and we are broken up into 59 different community boards. 
There needs to be more of a community-based response. For 
example, if you worked in programs in the community and 
sometimes you don't--a lot of people don't live in that 
community. Those people did not know where to go. They could 
have gone to other communities and other programs to lend their 
help. So I think there is also these informal relationships 
where you have at the post office or you have with the 
different businesses in the community. I think to begin to work 
that a little more in terms of making sure the relationships 
are there if things break down that you can work with a very 
local level.
    I appreciate the need to have Federal interagency responses 
as well as state responses. But at the city level the action 
occurs on a local level and unless the people on the ground 
floor of the meal deliveries are trained as to what is going to 
happen and who they go to--and nobody was prepared--at least I 
wasn't prepared, let's put it this way, for this kind of 
magnitude of tragedy. The thing that I raise is that as time 
goes by that we keep diligent in terms of putting these 
preparedness plans in place and take them seriously, and so I 
would urge that there be some sort of mandate on a very local 
level that people work together.
    Senator Craig. Well, I appreciate you saying that. I come 
from a very rural setting. I grew up. My nearest neighbor was 
seven miles away in a rural ranching environment. While we 
think of help coming in from the outside, it always would get 
there too late. We really had to think locally and think 
neighbor to neighbor and always did. I think that while I agree 
that Federal, state, local cooperation is tremendously 
important as it relates to training and communication and we 
are finding out that the right hand in some instances on 
September 11 did not know what the left hand was doing. There 
is no question that those who are there if properly trained at 
the moment the circumstance occurs can save lives as we know 
and be that first line. Of course, fire departments certainly 
were doing that in part immediately in the first instants. But 
I think your admonishment or at least observation that local is 
as critical as national is very true as we coordinate that. 
Thank you.
    Mr. Jellinek. May I say one thing.
    Senator Craig. Yes.
    Mr. Jellinek. It is not an admonishment but an observation.
    Senator Craig. No, no, no, I appreciate that. It really 
isn't. But it is a valuable observation and I agree with that.
    Wayne, again, coordination state, Federal agencies, one or 
two of your remaining thoughts. If you had the ability to say 
tomorrow this would be different because I know it would 
improve the circumstance I have to operate under, what might 
that be?
    Mr. Osten. Senator, I think the one area that needs to be 
incredibly close coordination between Federal and state is on 
responding to a biological event. I mean as bad as the Trade 
Center was and the effects of that, the concerns of a 
biological event going undetected for a period of time and how 
you respond to that, that needs an--and I am sure Dr. Ostroff 
would agree with that--that needs to be close corporation 
between the Federal Government and state as well as the locals 
because its the locals that will immediately deal with the 
problem. That would be my No. 1 priority.
    Senator Craig. Wayne, that is something we worry about.
    Doctor, I am going to jump across the table to you with 
this observation and I would appreciate your reaction from 
where CDC is today versus where it was at the beginning.
    I just got back into our office building 2 weeks ago. I was 
in the Hart Building. My offices and some of the staff around 
you were in the Hart Building. One of the things I observed is 
that the best knowledge that was available after the anthrax 
exposure in the Hart Building when there was a determination to 
evacuate--and I say this as no criticism--the best information 
that was available and the advice that was given us by CDC on 
that day to communicate to our staffs was advice that was 
invalid 30 or 40 days later as we began to pick up knowledge 
and experience based on the woman here in New York and 
certainly the woman in Connecticut. This tremendous change in 
knowledge occurred based on the type of anthrax, the size of 
the spores, the airborne character of them. Would you comment 
not only in relation to what Wayne has just said but where CDC 
is at this moment in cooperation with FEMA in not only better 
coordination but programs in relation to new knowledge.
    Dr. Ostroff. Thank you, Senator. I will start my comments 
by saying that when the anthrax episode happened, an event like 
this had never happened before. We were relying primarily on 
scientific information that was in most cases decades old from 
totally different types of settings. We were trying to use that 
information and base our decisions on information that in some 
cases turned out to be quite accurate and in some cases 
certainly did not. I can tell you that here in New York, as 
well as in Washington, DC. on a day-by-day basis as we went 
through this episode, we learned every single day. We refined 
what we were doing on a day in and day out basis as we acquired 
more information. Here in the city of New York, certainly the 
way we responded at the various media outlets, from NBC to ABC 
to CBS and the New York Post was different each time. We 
learned from each experience. If we don't do that, then I think 
we are foolish because you have to learn from that experience.
    Senator Craig. Would you hold for just a moment. We need to 
change another tape.
    Dr. Ostroff. So we did certainly learn a lot. I will also 
say that we have a lot to learn. We will continue to try to 
massage the experience that we had over the last several months 
so that we can make the best informed decisions as we move 
forward. I think the good news, and I will say this quite 
frankly, is that most of the decisions that were made, in 
retrospect, were the right ones. We did I think, by and large, 
protect most people during this episode and I think that is 
much to our credit.
    I will say if I may, as opposed to some of the other 
comments that were made, I am a bottom-up guy. I think that, at 
least in public health, the responsibility as well as the 
expertise is as much at the Federal level as it is at the local 
level. The solutions and the infrastructure here in New York 
City may be very right for New York City, and may be very wrong 
for a place like Idaho. I think it is going to be quite 
important for each place to come up with solutions that are 
appropriate based on what they have to work with and what they 
have to build. The one other thing I will mention is one of the 
things we also learned: while it may be fine for New York State 
to develop their plan and for Connecticut to develop their plan 
and for New Jersey to develop their plan, many of these 
episodes as we went through them were multistate; that was true 
within Washington, DC., and certainly that was true here in New 
York City. It affected people in New Jersey, it affected people 
in Connecticut. While the facilities may have been here in New 
York, the people were in a different state. The same was true 
in New Jersey with people in Pennsylvania and Delaware. That is 
why we need to be able to coordinate these types of activities.
    Senator Craig. Doctor, thank you very much. FEMA is going 
to have to leave us and catch an airplane. David, while we 
always look at FEMA after the disaster to help, to bring in 
resources, to direct and then, in some instances, to help 
rebuild on a individual basis. One of the things that in a 
previous hearing last week I heard from you all and Joe was 
there speaking about his training and a substantial new role 
for all of that and coordination, recognizing your time and you 
can be very brief, I appreciate that because our time is up 
here also, you just might broach that for a second as I think 
it is a new role for FEMA to be participating in.
    Mr. Paulison. That is an excellent observation. Three 
things came out of the World Trade Center that we kind of knew 
were out there, but it really came to a head: One, is 
communications and interoperability, you know. One agency 
couldn't talk to another agency, even through a command post, 
and that is intolerable; we have to deal with that.
    Two, is a nationwide instant command system. All of the 
fire departments use the same instant command system, and it 
has been nationally recognized as the one we want to use, but 
other agencies are not on board yet. That creates some problems 
when you have your command post set up where everybody is 
participating and we have to deal with that.
    Also mutual aid. What happened in New York is the same 
thing that happened in Miami during Hurricane Andrew. We had 
people coming from everywhere who were not asked to come in, 
and it overwhelms the local system. You can't feed them, you 
can't house them, you don't know what their credentials are, 
whether they are really firefighters or whether they are really 
paramedics or what their expertise is. They are just coming in 
to help. We have to stop that. Somehow we have to be able to 
deal with just an overwhelming response--people who want to 
come in and help but may not be the right people to help.
    Third, and I do agree with the doctor, that we have to have 
more robust local planning or emergency plans at the local 
level because that is where the rubber hits the road and that 
is what FEMA's role is, to help with that, and we are going to 
be doing that through training; the President's proposal on his 
budget for three and a half billion dollars to go to first 
responders is geared to deal with that, and that is where we 
are in that, and we are ready to roll as soon as the Congress 
approves that. Thank you.
    Senator Craig. David, thank you and your associate for 
being with us.
    Alexander, let me turn to you before I conclude with 
Richard. There are so many things that I would love to ask you, 
and we have had some of your associates down and firefighters 
from other departments around the country visiting with 
Congress since the September 11 situation. But here in New York 
is there any view of or do you sense a need as it relates to 
training within your professional ranks to deal more with the 
prioritizing of seniors as it relates to their needs and to 
those people who are the disabled, any new stuff coming out of 
the September 11 experience that you would suggest would become 
a part of your training?
    Mr. Parzych. Well, I think our training is adequate in that 
we are staying with our standard procedures except for like a 
September 11; that isn't standard procedures. In other words, 
most of our procedures are if the people are not in danger in a 
high-rise building or a fireproof building, we do not remove 
them, you know, for a fire or some kind of an emergency. We 
have had areas to be evacuated which were larger than just 
let's say a whole building because of gas leak or something 
like that, but nothing on the scale of September 11. I think it 
is hard to be prepared for that. I think the Fire Department an 
outstanding job getting so many people out with the help of the 
people themselves, and I think the cooperation has to come with 
the community, with the disabled and the aging to with not 
having laws, but we do have procedures in a high-rise building, 
as you say, and here is a problem: The Port Authority doesn't 
have to comply with our laws because they are a state agency 
that are in the city. So the bombing on 1993 sort of made them 
open their eyes to comply with our laws, which made this time 
much better. Having fire safety directors, having fire drills 
and as fire safety directors fire wardens and our fire 
marshals, but that is a minor point. But in my building I am a 
fire warden, and we do take it very serious, especially--we 
just had a drill. If I don't take it serious, no one will, and 
it is important. So, the laws we have on the books now are very 
good. There are improvements, but I think it is a cooperation 
with in high rise buildings the fire safety plan, which is a 
mandated plan for these hotels and office buildings to require 
to give us the location of where the handicapped people are and 
what shifts there are. There is no real coordination of 
training or anything more specific than that. We are probably 
going to look into that and maybe make that a little more 
specific, but we are supposed to have when we arrive there a 
list of who needs help and where they are. We may not know 
exactly what the handicap is, we might have to refine that, but 
again, depending on what the circumstances are, we may not want 
to get 50,000 people out of a building. That is going to be 
very unusual, and I think my only personal opinion is the next 
one may be biological which you have 50,000 people just walking 
out and spreading it further, which we are involved with with 
hazmat, so hazmat and that training I think has to be beefed 
up.
    As far as mutual aid and recall, we had a system there. I 
was not at the World Trade Center. Our command staff went 
there. I had them be back, and we instituted our total recall 
and we had mutual aid with every community we had, which is a 
designed plan as OEM said; we didn't have people just coming in 
and volunteering. They had to get approved to come in with our 
dispatcher. At the World Trade Center, that was a different 
circumstance. It was tough to control who was coming in. But 
for the rest of the seven and a half million people we had a 
system that came in to protect them at the time.
    Senator Craig. Thank you very much for those thoughts, 
those ideas and some of what you are employing.
    Let me turn to you now, Richard, and we will ask you to be 
our last as I ask this question. You had mentioned in your 
testimony you are in the business of drafting a special report 
or special proposals on special needs folks. If you could share 
with us some of the three or four let us say top 
recommendations that will be involved in that draft that 
might--not only are they going to work here in New York, but 
might be something that we would want to look at at a Federal 
level whether it be with FEMA or the health and welfare, health 
and human services and aging.
    Mr. Sheirer. Well, as we went around the table today you 
heard a lot of recurring: communications, the registry. It is 
very, very important. One of the things we use almost every day 
is those persons who could be affected by power outages and the 
utilities in our town are mandated to have a list of anybody in 
every building who would be affected if they lost power; so 
when we do have a power outage, those are the first things we 
check on are those what we call LSEs to make sure that they are 
OK. How we expand that to include every person with special 
needs in New York is going to be a real challenge, but it is a 
real necessity to make sure people like Marion and her husband 
get what they need and we know where they are; to try and be 
able to get them their medication so they don't have to leave 
their home if we can avoid it. In this instance there was no 
way of avoiding just the enormous relocations that we had to 
do. I mean, there were tens of thousands of people in Battery 
Park City in north and south that we moved out and people north 
of the Trade Center. We had no recourse in that; it was just 
absolutely essential. But having a registry of those persons 
with special needs like the man that Andrea spoke of who 
refused to leave or didn't tell us that he wasn't going to 
leave is very important so we can do a follow-up. A little 
thing, a little aside, we do have a plan for pets and we have 
tried to incorporate it, but no plan that we had could 
encompass the numbers that we experienced. Even with our 
coastal storm planning, we asked people ahead of time to start 
thinking about what you will do with your pet because it is 
going to be impossible for everybody to take their pet to a 
shelter.
    The communications issue is a critical one for everyone, 
for people who live in the buildings and reside, the public 
health community, the public safety community, and the number 
of responders that we had at the World Trade Center and the 
number of frequencies, there was frequency overload that just 
could not be helped because of the number of messages. How you 
address that, we don't have the answers yet. In terms of 
telephone communications, this being Murphy's law, the one 
building that was probably most affected other than the Trade 
Center buildings themselves was the Verizon building which 
knocked out virtually all communications in lower Manhattan 
right away. We had to get them back to even get the financial 
markets back. So, there were a lot of things that happened, and 
we are all looking at that including Verizon.
    The transportation issue, we had to close Manhattan and we 
have to find a way to get people in and out. IDs are a problem. 
There were a number of people that we had to have arrested with 
false IDs who went into the site. We had a couple reporters who 
posed, one as an ATF agent and one as a firefighter to try and 
get in and get stories and pictures and there were just 
individuals who were up to no good. We caught a few in the 
access to the concourse, so it is a very difficult problem.
    The need to identify caregivers, Meals on Wheels, people 
have a universal identification is something we are going to 
look at and hopefully will never have to use to the extent we 
would have had to now.
    The sheltering system. Marion's experience of being there 
for 8 days, that is very difficult. We have done everything we 
can to try to make it as habitable as possible, but it is 
virtually impossible. These are the issues we want to look at. 
We do have--I will leave you a copy of it--our all hazard plan 
which specifically deals, has a section. It is web-based on 
people with--seniors and special needs people planning. But 
having it web-based alone is not enough, and we go further than 
that. How we can expand it and get community involvement with 
it is very important.
    Many of the people around this table are the people that 
sit on our task forces for various things, and we would like to 
bring them all together on this particular issue. Liz Davis, 
who is my special needs advisor, will probably reach out to 
everybody. So, there are a number of things, many recurring.
    One thing I just want to say about what Michael said. I was 
at the bombing in 1993, and Chief Cowan, who was just here and 
left, we were in the lobby of Number One on September 11. There 
was a marked difference between the way people left that 
building in 1993 and the way people left that building on 
September 11. 1993 whether it be because the bomb was at the 
base of the building or whether there wasn't adequate 
preparation or training, there was a lot of panic, a lot more 
chaotic. This time we didn't have the chaos. People were just 
absolutely terrific. People like Michael will never know how 
many people like Michael were there helping people get out of 
that building. We know how many firefighters and police 
officers and court officers and EMTs did what they did, but the 
number of just average citizens who helped their fellow 
citizens, an amazing number. It was just an amazing community 
effort, and that is something that is lost in New York. New 
Yorkers really--we may be eight million people, but we are all 
very real communities, much like small towns. While Idaho may 
be different being rural, you can go to York Village which has 
its own character, you can go to the Village, you can go to Bay 
Ridge, and these are all it communities are very much, very 
similar, more like small towns, just happen to be part of a big 
city.
    On the issues for bioplanning, Dr. Ostroff and I spent a 
lot of time together, much more than I had ever thought we 
would these last few months. One of the things we have in New 
York City that gives us a little bit of a heads up, we have a 
syndromic surveillance system that monitors EMS calls by the 
category they are and gives us an indication that something is 
out of whack before it would be readily available. Then we have 
CDC epidemiologists and Department of Health epidemiologists 
work back to make sure that the operation we are seeing is not 
bio, that it could be flu, it could be just whatever it is, but 
we want to know what causes it. That works very well in New 
York, and we have expanded it, but it would not necessarily 
work in Idaho or other communities because you are not 
ambulance based. But those surveillance systems in terms of 
hospitals in terms of doctors. We worked now with the large 
pharmaceutical chains. They cooperated and gave us--we knew the 
sales of over-the-counter medications so if anything was out of 
whack in terms of flu medications and then prescribed 
medications with anonymity, we knew where the big sales of Doxy 
and Cipro were going and what was going on. These type of 
systems are worth their weight in gold. It is transferable, but 
it takes a little work, and that is the way to go. But we will 
be working on a lot of different issues for the entire special 
needs and senior community because they're the most vulnerable 
people in our town and we have the highest obligation to them 
amongst all others.
    Senator Craig. Richard, to you, to all of you, a very 
special thanks for your time here today and your patience, 
because none of us in Washington have an answer. We are in the 
business of collecting those from all of you so that we can 
help prioritize and hopefully supply what is necessary, whether 
it be organization or resource that will assist you.
    I truly agree with you; what will work in New York City 
will not work somewhere else, but what you learn here may be 
something that someone else won't have to learn by the sheer 
experience that you have had. I think that is extremely 
valuable as we work our way through this. This committee, as I 
said at the beginning, is not an authorizing committee. But our 
records and what we supply and what we can provide for other 
members of the Senate or all of us who serve on this committee 
also serve on authorizing committees. It will be extremely 
valuable as we search our way through this, and we hope that we 
can develop a system that can respond quickly to biological 
kinds of terrorist attacks because I hope you are wrong, 
Alexander. I hope that will not be our next one. But there is a 
strong likelihood that at some time in the future that could 
occur, and certainly preparedness will mean in the end less--
fewer of our citizens will lose their lives, more will be 
prepared, and my guess is, you are right and Michael is right. 
Something worked because from the initial attacks at the Tower 
until the tragedy of the final numbers, within the first 24 to 
48 hours those of us on the outside looking in were expecting a 
much worse situation from the standpoint of human life lost 
than did occur. To be able to evacuate that many people out in 
the short time that was given before those towers came down 
was, in itself, a remarkable thing. While I think it is missed 
by some in the reports of aftermath, I remember at the time we 
were talking of 25,000 or 30,000 potential lives lost, only to 
have it now where it is, although that is tragic.
    Ladies and gentlemen, thank you very much, and I will ask 
that this committee stand in adjournment. I must tell you also, 
and I forgot to thank staff for all the work, but I thank them 
for working with you in preparing for this hearing and again 
thank them.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7851.042

[GRAPHIC] [TIFF OMITTED] T7851.043

[GRAPHIC] [TIFF OMITTED] T7851.044

[GRAPHIC] [TIFF OMITTED] T7851.045

[GRAPHIC] [TIFF OMITTED] T7851.046

[GRAPHIC] [TIFF OMITTED] T7851.047

[GRAPHIC] [TIFF OMITTED] T7851.048

[GRAPHIC] [TIFF OMITTED] T7851.049

[GRAPHIC] [TIFF OMITTED] T7851.050

[GRAPHIC] [TIFF OMITTED] T7851.051

[GRAPHIC] [TIFF OMITTED] T7851.052

[GRAPHIC] [TIFF OMITTED] T7851.053

[GRAPHIC] [TIFF OMITTED] T7851.054

[GRAPHIC] [TIFF OMITTED] T7851.055

[GRAPHIC] [TIFF OMITTED] T7851.056

[GRAPHIC] [TIFF OMITTED] T7851.057

[GRAPHIC] [TIFF OMITTED] T7851.058

[GRAPHIC] [TIFF OMITTED] T7851.059

[GRAPHIC] [TIFF OMITTED] T7851.060

[GRAPHIC] [TIFF OMITTED] T7851.061

                                   - 

</pre></body></html>
